<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE BENEFITS OF POST-CENSUS LOCAL REVIEW</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
  OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE BENEFITS OF POST-CENSUS 
                              LOCAL REVIEW

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 1999

                               __________

                           Serial No. 106-38

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
60-286 CC                    WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
JOHN T. DOOLITTLE, California        CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            DANNY K. DAVIS, Illinois
PAUL RYAN, Wisconsin                 HAROLD E. FORD, Jr., Tennessee
MARK E. SOUDER, Indiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
                Erin Scanlon, Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 11, 1999................................     1
Statement of:
    Boatwright, Lanier, president, National Association of 
      Developmental Organizations; and Barbara Welty, board 
      member, National Association of Towns and Townships........    88
    Bourey, James, executive director, Maricopa Association of 
      Governments; Kenneth Blackwell, Secretary of State's 
      Office; Timothy M. Kaine, mayor, city of Richmond; and 
      Carol A. Roberts, county commissioner, Palm Beach County, 
      FL.........................................................    48
    Ehrlich, Everett, U.S. Census Monitoring Board; and Barbara 
      Bryant, National Quality Research Center, School of 
      Business Administration, University of Michigan............   113
    Foley, Hon. Mark, a Representative in Congress from the State 
      of Florida.................................................    47
    Petri, Hon. Thomas, a Representative in Congress from the 
      State of Wisconsin.........................................    27
    Sawyer, Hon. Thomas, a Representative in Congress from the 
      State of Ohio..............................................    28
Letters, statements, etc., submitted for the record by:
    Blackwell, Kenneth, Secretary of State's Office, prepared 
      statement of...............................................    61
    Boatwright, Lanier, president, National Association of 
      Developmental Organizations, prepared statement of.........    91
    Bourey, James, executive director, Maricopa Association of 
      Governments, prepared statement of.........................    50
    Bryant, Barbara, National Quality Research Center, School of 
      Business Administration, University of Michigan, prepared 
      statement of...............................................   122
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois:
        Letter dated February 9, 1999............................   110
        Prepared statement of....................................    21
    Ehrlich, Everett, U.S. Census Monitoring Board, prepared 
      statement of...............................................   115
    Kaine, Timothy M., mayor, city of Richmond, prepared 
      statement of...............................................    66
    Roberts, Carol A., county commissioner, Palm Beach County, 
      FL, prepared statement of..................................    74
    Sawyer, Hon. Thomas, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    31
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     6
    Welty, Barbara, board member, National Association of Towns 
      and Townships, prepared statement of.......................    98


  OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE BENEFITS OF POST-CENSUS 
                              LOCAL REVIEW

                              ----------                              


                      THURSDAY, FEBRUARY 11, 1999

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee of Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:15 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Doolittle, Ryan, Souder, 
Waxman, Davis of Illinois, and Ford.
    Staff present: Thomas W. Brierton, deputy staff director; 
Jennifer Safavian, chief counsel; Timothy Maney, chief 
investigator; Erin Scanlon, professional staff member; Phil 
Schiliro, minority staff director; Michelle Ash, minority 
counsel; Mark Stephenson, minority professional staff member; 
and Earley Green, minority staff assistant.
    Mr. Miller. Good morning. I apologize once again for the 
delay in the beginning of this hearing on the census. This is a 
very important hearing and I appreciate everybody's patience.
    I just found out late last night about the Congressional 
Black Caucus having a conference concerning the census this 
morning. I was invited over there at 10 o'clock, and I 
appreciate that opportunity. I felt that it was important 
enough, as they had a very distinguished panel over there, to 
be able to participate in it. So I, once again, express my 
apology.
    We'll begin with my opening statement, and an opening 
statement by the minority. Mr. Davis will be giving that, and 
then we'll go to our first panel.
    Let me say good morning and welcome to everyone and welcome 
to the new members. They're not here right now, but we have a 
lot of new members. We have one new member on the minority side 
and we have three new members on the majority side. Hopefully, 
they'll be here sometime during the hearing.
    This is my second term as chairman, and I'm excited about 
working together with everyone to achieve a successful census 
in 2000. Unfortunately, our ranking member, Mrs. Maloney, was 
unable to join us today. She's overseas traveling on official 
government business. I know if it were at all possible, she 
would be here. Under normal circumstances, I would have 
postponed the hearing and markup scheduled for later today. But 
these are anything but normal circumstances. They are 
extraordinary circumstances.
    Just weeks ago, the Supreme Court ruled the Census Bureau 
cannot use sampling in the 2000 census. Now, we must move 
quickly to provide the Bureau and local governments the tools 
they need to count everyone in America.
    Any legislation that Congress intends to pass that would 
have the Census Bureau adopt a program such as post-census 
local review must be done expeditiously. To delay this hearing 
would delay the subcommittee markup. To delay the subcommittee 
markup would delay the full committee markup, as well as final 
action on the House floor. I haven't even talked about getting 
this legislation through the Senate.
    I would also add that, as everyone in this room 
understands, this is a long process and there will be ample 
opportunities for people on both sides of this issue to voice 
their views, offer amendments, and cast their votes.
    To be fair to the Census Bureau, we must provide them 
needed time to implement any new program that Congress may 
legislate. It's unfortunate that Mrs. Maloney is traveling 
abroad, however, the business of counting America cannot be 
delayed.
    So, we are here to take another important step in counting 
America. The ``America Counts Today'' initiative is a 
progressive plan to count everyone in the 2000 census without 
the use of illegal sampling. This plan, supported by the 
leadership, contains a number of different proposals: hiring 
100,000 additional census enumerators who would target the 
hardest-to-count communities; increasing the advertising budget 
for the Census Bureau; conducting a second mailing of census 
forms; providing matching grants for local communities to 
conduct community outreach programs.
    Yesterday, Congresswoman Carrie Meek, a distinguished 
member of the Congressional Black Caucus, and I jointly 
introduced legislation that would allow welfare recipients and 
veterans to take temporary census jobs without losing their 
benefits. Mrs. Meek is to be commended for her efforts in this 
area and her commitment to working with Republicans to get the 
most accurate count possible. She is setting a shining example 
of cooperation.
    Today, we are here to focus on another key element of the 
``America Counts Today'' initiative: post-census local review. 
Post-census local review is a very straightforward, common-
sense idea implemented by the Bureau in 1990. When explaining 
the importance of post-census local review in 1990, the Bureau 
said,

    Most important is that local officials have an opportunity 
to review the math and count while the census is still in 
progress. Possible errors identified and reported at this stage 
are relatively easy to check and correct if necessary. Once 
this stage is passed, problems can become difficult to resolve.
    The officials of local and tribal governments that choose 
to participate also will have a better understanding of the 
procedures and concepts involved in taking a census. A 
considerable amount of good will and understanding of one 
another can develop between the governmental unit, the State 
agencies assisting the governmental unit and Census Bureau 
personnel as a result of the interaction during the local 
review program.

    Apparently, the Bureau now feels that these good reasons 
for having post-census local review in 1990 are no longer 
valid. They are discontinued--they have discontinued this 
important step in the census process and this is unfortunate 
and it must be corrected.
    I know there are two words that local officials hate to 
hear from the Federal Government. They are: ``Trust us.'' 
That's exactly what the Bureau's telling local governments. On 
the one hand, they tell us how important the census is and how 
important it is to get everyone counted and on the other hand 
they are saying ``We don't want you to check our work. It's 
accurate. Trust us.''
    Well, that type of attitude does not breed confidence in 
the census. It breeds distrust in the census. While it's true 
that the Bureau has worked very closely in building good 
address lists and maps through the ``Local Update of Census 
Address Program,'' commonly known as LUCA, it just doesn't make 
sense to eliminate the local involvement on the back end. After 
all, the finalization of the numbers is critically important.
    I don't know where my Democratic colleagues here today 
stand on this issue. I know some here don't believe it would be 
helpful. But I would urge anyone speaking in opposition to a 
local audit not to try and convince me that it's a bad idea. 
You need to convince the California League of Cities, which 
represents 472 California cities, why the post-census local 
review is a bad idea.
    Convince the National League of Cities that a post-census 
local review is a bad idea. Convince the National Association 
of Towns and Townships. Convince Mayor Dennis Archer of Detroit 
who spoke very forcefully at the U.S. Conference of Mayors in 
favor of post-census local review. Tell him why adding 47,000 
residents to the city of Detroit, as they did in 1990, is a bad 
idea.
    And most importantly, explain to your local government 
leaders why they should blindly put their fate in the hands of 
the Federal Government and not review those census numbers that 
we all agree are so vital before they become final.
    I'm amazed that there's anyone at all testifying against 
this legislation, but there are. What's even more astonishing 
is the reasons why. Cost effectiveness--the assistant city 
attorney for the city of Los Angeles will tell us later, 
according to her testimony, ``This time-consuming, costly 
process was to add a mere 7,735 dwelling units to the city's 
housing unit PAL.''
    So now we have the sampling advocates on the record as not 
wanting to go the extra mile to get their citizens counted. How 
ironic. A ``mere 7,735 units'' is what her testimony says. If I 
were ever to make those comments, I would be branded as not 
wanting to count everyone. How many minorities and children 
live in those 7,735 housing units? And why shouldn't they be 
counted?
    What these opponents of post-census local review are now 
saying is that everyone is not worth counting. It's not worth 
the additional effort and time and cost to ensure that everyone 
is counted. Well, I can tell you now that if I have anything to 
say about it, this Congress will go the extra mile to ensure 
that everyone is counted. We have a constitutional duty to do 
nothing less.
    In conclusion, let me make something perfectly clear. We've 
fought the fight over sampling in the Supreme Court and we won. 
But that's not good enough. As the saying goes, if you're going 
to talk the talk, you need to walk the walk. We need to put 
forth concrete proposals that will help give the Bureau and 
local communities the resources they need to get an accurate 
count.
    Post-census local review is not the silver bullet to a full 
count in the 2000 census. It is one important piece of a multi-
faceted effort to count everyone. As I said 2 weeks ago when I 
introduced the ``America Counts Today'' initiative, I am 
looking forward to getting a Census Bureau plan for a full 
enumeration. It is overdue. I also look forward to innovative 
proposals from the administration on how they intend to count 
America legally.
    This isn't about taking credit or casting blame. Yesterday, 
Congresswoman Meek and I stood shoulder-to-shoulder and 
introduced an important tool in helping get America counted. 
That needs to be the example that we need to continue to 
follow. We must stop using the census to divide America. We 
must unite and count America.
    And now, we'll have an opening statement by the minority. 
Any other members that want to have an opening statement, we'll 
submit it for the record.
    Mr. Waxman. Well, Mr. Chairman, I would hope you'd allow 
members to make their opening statements. We didn't object to 
you going on beyond the 5-minutes and I don't think our side 
will use more time than you did. But ordinarily members should 
have that courtesy extended to them.
    Speaking of courtesy being extended to us, I'm here to 
express some bewilderment and regret as to the state of 
affairs. The ranking member of the subcommittee, Mrs. Maloney, 
presumably had a conversation with you asking that this meeting 
not be held in her absence because she's leading the U.S. 
delegation at the International Conference on Population and 
Development. Representatives Davis and Ford had to cancel 
previous commitments at the Congressional Black Caucus Summit 
in order to be here.
    Our committee has a bill on the floor at the very same 
time, coincidentally, not something you would have been able to 
anticipate. So, it's one thing to have the situation where the 
ranking member requests and presumably was granted your promise 
not to hold the hearing, however we also find ourselves with a 
hearing and a markup scheduled immediately after the hearing.
    Ordinarily, to find out whether a bill is a good idea or 
not, and I don't prejudge the matter, because I'd like to hear 
what the witnesses have to say, you hear from the witnesses, 
you evaluate their testimony, oftentimes you get ideas from 
other people and don't just tell them what you think. You want 
to hear what they have to say and get some input. And based on 
the input, we might well have some further thoughts about what 
the legislation ought to say. But today, it doesn't appear 
we're going to have any opportunity to take the testimony into 
account if it suggests needs for changes in this legislation 
before the subcommittee's proceeding to a markup.
    This doesn't suggest to me a desire to hear and accommodate 
minority concerns, Democratic party concerns, your colleagues' 
concerns on this side of the aisle. Ironically, the subject of 
this legislation is one that could produce fruitful bipartisan 
legislation. Each of us here knows and works closely with local 
governments in our district. We often share their concerns. 
Consequently, when a group of local government officials comes 
before us with a problem, we usually work to find a bipartisan 
solution to their concerns.
    Today, we'll hear that local governments want to make sure 
that the census counts all of the housing units in their 
jurisdiction. I'm sure that all of us here today agree with 
that goal. It is possible, though highly unlikely, that the 
bill to be marked up this afternoon is the single and unique 
solution to the set of problems.
    In fact, the city of Los Angeles yesterday adopted a motion 
opposing H.R. 472; so obviously, all local governments are not 
in agreement as to how to achieve the goal of an accurate 
account. And I would like to submit that motion into the 
record, along with my statement. In addition, I'd like the 
testimony of Jessica Heinz, the assistant city attorney for the 
city of L.A., to be submitted into the record. Ms. Hines was 
unable to be with us today.
    [The prepared statement of Hon. Henry A. Waxman and the 
information referred to follow:]

[GRAPHIC] [TIFF OMITTED]60286.001

[GRAPHIC] [TIFF OMITTED]60286.002

[GRAPHIC] [TIFF OMITTED]60286.003

[GRAPHIC] [TIFF OMITTED]60286.004

[GRAPHIC] [TIFF OMITTED]60286.005

[GRAPHIC] [TIFF OMITTED]60286.006

[GRAPHIC] [TIFF OMITTED]60286.007

[GRAPHIC] [TIFF OMITTED]60286.008

[GRAPHIC] [TIFF OMITTED]60286.009

[GRAPHIC] [TIFF OMITTED]60286.010

    Mr. Waxman. I believe there are a number of ways we could 
solve the problems raised by local governments in an open and 
unprejudiced manner. If we had a discussion of these 
possibilities, it might lead to a solution that all of us could 
stand behind. Unfortunately, the subcommittee has precluded the 
possibility of rushing to a markup immediately after this 
hearing. And then, I don't know what the schedule was like 
today, but this was a hearing scheduled for 10 o'clock. I was 
prepared to be here at 10. I was informed the meeting was going 
to be put off. I got all of one--maybe 5 minutes notice that 
the meeting was already called to order. So I rushed from the 
floor and I have to rush back to the floor because we have a 
bill under consideration.
    I want to thank all the witnesses that are going to be 
testifying today. I regret that I won't be here, but I'll have 
an opportunity to review your testimony. The chairman made a 
misstatement. I just have to respond to it. The Supreme Court 
did not settle the issue about sampling to get an accurate 
account. The court said you cannot use, by a narrow margin of 
5-4, sampling in the census for the purpose of apportioning 
seats between the States. But the court was very clear in 
affirming that the law requires the Secretary of Commerce to 
use sampling where feasible for all other purposes. And that 
would seem to me to lead us to the situation where we're going 
to have two counts, two counts that will be submitted--one that 
will not be fully accurate in terms of apportionment between 
the States and another one for all other purposes that will be 
far more accurate. Perhaps we can change it and have one count 
that will be the most accurate count for all purposes. But I 
sense that that's not something that the majority is going to 
be receptive to because they want the least accurate count to 
be the one to apply for all purposes.
    Mr. Chairman, I'm not going to be here for the witnesses. I 
don't think it really makes sense or is appropriate to rush to 
a markup. For myself, I'm just not going to be here for your 
markup. I don't know what other members are going to do. I 
don't see why we ought to even be participating in the markup 
the way we find ourselves today. If you go forward, you go 
forward. And I'll just deal with these issues as we get to full 
committee, still with the hope that we can talk and work 
together and try to get a bipartisan bill. If not, we'll fight 
the fights out in full committee. I'm not going to be here to 
fight in its subcommittee and I don't know what my colleagues 
are going to do but I don't know why they'd want to stick 
around, either.
    So I yield back my time. I hope you'll let other members 
who want to make opening statements have that opportunity.
    Mr. Miller. Thank you, Mr. Waxman. One of the reasons it 
was delayed is that I was invited to go participate in the 
Congressional Black Caucus over at the Hyatt and I went over 
and participated in the panel. I felt it was worthwhile enough 
to delay the hearing for an hour.
    Traditionally, as you know, we don't normally have all the 
members. Mr. Sawyer and Mr. Petri are going to be our opening 
panel. We have two new members, Mr. Ford and Mr. Ryan, and if 
they want to make opening statements, we'll do that. I hope it 
doesn't mess up everybody's schedule too much. It won't take, 
hopefully, too long. Is that alright? OK?
    Well, let me call on Mr. Ryan for an opening statement.
    Mr. Ryan. Yes. Thank you, Mr. Chairman. First, let me start 
off by saying that we do want an accurate census. That's very 
important for us. The importance of a census to our system of 
government cannot be stressed enough. That is what all of us 
are after. It was specifically provided for in our 
Constitution. The founders of our country clearly felt that it 
was vital to ensure fair representation for the citizens of 
this country. Getting an accurate census count in the year 2000 
will be of the utmost importance to the citizens of my home 
State of Wisconsin, which is why I'm very pleased to have a 
member of our delegation, Congressman Petri, here before us 
today. He knows this census process very, very well. He's been 
involved in it for a number of years. And he will be testifying 
with us today.
    Congressman Petri played a key role in the 1990 census and 
I believe his input in planning the year 2000 census will be 
invaluable. So I hope members will stick around to hear his 
testimony.
    It is the goal of this subcommittee to have an accurate 
census in the year 2000, as I mentioned, and the involvement of 
local governments is essential to the accuracy of our census. I 
am concerned, however, though, that efforts to make the 
upcoming census accurate are in question. Yesterday, we heard 
from the GAO with our high risk series in the full committee 
level. The GAO has labeled the 2000 census a ``high risk'' 
program based on information that the Census Bureau has not yet 
developed.
    Now, the Supreme Court ruling that an actual enumeration is 
legally necessary in the census process requires the Census 
Bureau to shift its focus toward counting citizens rather than 
sampling. So, the question is, how are they going to get ready 
and work on enumeration?
    The administration and the Census Bureau have chosen to 
disregard the Supreme Court's decision. That is very 
unfortunate. It is vital to the success of the Census Bureau to 
concentrate all of its efforts on one method of data collection 
to avoid any confusion and inefficiency.
    It's already, you know, February 11th. We're less than 2 
years away. According to the GAO, the state of the plan for the 
2000 census is at risk for a number of reasons, not the least 
of which is a desire by the Census Bureau to pursue two methods 
of data collection or focus on obtaining two sets of numbers. 
Sampling is not an option, according to the Supreme Court. Our 
Constitution requires actual enumeration. The Supreme Court did 
specifically say that we must engage in enumeration for 
apportionment reasons. We are behind the eight ball right now.
    It is time to turn our attention to a method that will 
actually help us achieve these goals. It is well within the 
ability of the Census Bureau to obtain more accurate numbers 
through a program focused on actual enumeration. A program 
focused on outreach and local government review will give us 
the accuracy we are looking for.
    The bill proposed by the chairman of this committee lays 
out that kind of foundation for a successful census through 
actual enumeration. This voluntary program, allowing the input 
of local governments serves as a check on that data. Local 
government officials know their jurisdiction, they know their 
areas, much better than any Washington bureaucrat does. So they 
are in the best position to point out the flaws in district 
maps or neighborhoods that are being undercounted. This would 
ensure that all people in their area are accounted for.
    In 1990, when we did do this, it worked. And the Census 
Bureau utilized post-census local review. Approximately 16.3 
percent of the eligible government units participated. It was 
very successful for the areas that chose to participate. Over 
91,000 additional housing units were added. Participant cities, 
such as St. Louis, Milwaukee, in my home State, and Detroit 
were able to achieve a more accurate count for their 
populations through the use of post-census local review.
    Local governments know how important an actual census 
number is to their representation. The local governments do not 
need an incentive program to increase their desire to have 
everyone counted. They just need the tools to make sure that it 
happens. That is the key in this bill and I think that's a very 
important part of this legislation that we're going to be 
marking up.
    Now, the Census Bureau can do that by working with them to 
focus on areas that are typically undercounted. No one in this 
room wants a failed census. Your politics aside, we must do 
everything possible to ensure that the census is on the right 
track.
    I would like to thank all of the witnesses for coming to 
the committee today and I look forward to their testimony. 
Thank you very much, Mr. Chairman.
    Mr. Miller. Thank you. Mr. Davis.
    Mr. Davis of Illinois. Yes. Thank you very much, Mr. 
Chairman. And I also want to thank Mr. Waxman, the ranking 
member, for coming over to express his concerns.
    Mr. Chairman, I agree that this is a long, important, and 
sensitive process and I appreciate your desire to move as 
expeditiously and as prudently as possible. But I must admit 
that I'm a bit concerned that you've decided to call this 
hearing today in the absence of our ranking member, Mrs. 
Maloney. The issue of the census and accuracy is too important 
to exclude major people who need to be at the table.
    As we began the 106th Congress, the Republican leadership 
did so with the pledge of bipartisan cooperation. However, this 
hearing and the markup that is scheduled to follow do not 
strike a bipartisan note.
    This issue of post-census local review is an important 
issue. However, this is not a new issue. As a matter of fact, 
it is an old issue with a troubled past. Thus, I look forward 
to hearing Dr. Bryant's comments on how this post-census local 
review worked in 1990.
    As a former city councilman and a Cook County commissioner, 
I can really appreciate the presence of local governmental 
officials who are here today. Because this is really about 
resource allocation. And those who can get an accurate count 
can maximize their potential for Federal resources.
    Consequently, those in urban cities and rural communities 
who are missed lose out because they really do not count. So 
the 100 million people--the 10 million people who were missed 
in 1990, many of them poor, were essentially told that you do 
not count. Their local governments were short-changed of 
valuable resources. In Chicago, the undercount was roughly 2.4 
percent. And the African-American undercount was significantly 
higher, at between 5 and 6 percent.
    After examining the issue of post-census local review, I am 
not convinced that this gets us to the ultimate objective of a 
fair and accurate census for America. Because this post-census 
local review looked at housing units on a block by block basis, 
I submit that instead of relying upon the counting of housing 
units, let's count all of the people. In fact, the number of 
localities participating in the post-census local review was 
minimal.
    In addition, I am concerned that the costs borne by local 
communities will be very high. Also, I am concerned about 
accuracy because in 1990 about 12 percent of the 124,900 added 
to the census count were added erroneously. Nonetheless, I look 
forward to hearing from our expert witnesses and again, 
especially Dr. Bryant, who has devoted several pages to this 
issue in her book.
    I believe that the legislation, H.R. 472, the Local Census 
Quality Check Act, which is scheduled for markup, is both 
unwarranted and dangerous. First, it is too soon to tell if the 
Address List Correction Act, which was passed in 1994, will 
lead to greater accuracy and address some of the concerns at 
the local level. Moreover, this legislation could hamper and 
burden the Census Bureau as they attempt to implement a model 
that works.
    Finally, I believe that the legislation duplicates many of 
the activities already carried out in doing the pre-census 
local preview. I look forward to hearing from our experts how 
much of a burden this legislation will place on local 
governments. In addition, I look forward to hearing whether 
this legislation is really needed.
    Again, I thank you, Mr. Chairman, and I have in my hand a 
letter that was written to you and to Mrs. Maloney from Mr. 
Prewitt who is Director of the Bureau of Census. I'd like to 
read into the record this letter if I might:

    Dear Dan and Carolyn, I understand that the Subcommittee on 
the Census is holding a hearing tomorrow on H.R. 472 which 
would add a new section, 143, to Title 13 and require a post-
census local review, PCLR. I also understand that the 
subcommittee intends to mark up the bill immediately after the 
conclusion of the hearing.
    While I appreciate and understand the subcommittee's great 
interest in census operations, I am profoundly disappointed 
that the majority has apparently opted to pursue a legislative 
route to impose its judgments over the operational design 
judgments of the career professionals at the Census Bureau. In 
fact, the majority did not invite the Census Bureau to testify 
on this issue.
    On January 14, 1999, the Census Bureau submitted to 
Congress a report, ``Census 2000: Operation Plan,'' using 
traditional census-taking methods. The covering memo for the 
report noted that the career professionals at the Bureau have 
judged PCLR to be an ineffective way of improving census 
coverage.
    This judgment reflects their experience with PCLR in the 
1990 Census, which proved to be very expensive in both time and 
cost and provided very little improvement in accuracy. In fact, 
the operation only added 124,900 persons to the count, which is 
less than a 2-percent reduction of the gross undercount of 
roughly 8.5 million persons.
    It also included high error rates and extremely high cost 
per case. As the Census Bureau and outside experts have 
recognized and advised Congress, the benefits of PCLR derived 
from local governments' information on addresses in that 
jurisdiction, particularly new construction. Such information 
can and should be used in the census, but much earlier in the 
process than would occur on the PCLR. In our best judgment, the 
PCLR operation proposed in H.R. 472 would engage local 
governments in the wrong way and at the wrong time, as did the 
1990 operation.
    The Bureau continues to refine its operational plan in 
light of both the recent Supreme Court ruling and lessons from 
the 1998 dress rehearsals, including active consideration of 
new procedures to include in Census 2000 all new construction 
through March 2000. In that context, the Census Bureau is 
working on better methods for drawing on the expertise and 
information of local governments and to accomplish the benefits 
contemplated by PCLR.
    I would strongly urge the subcommittee to take no 
legislative action before granting us the opportunity to 
explain our concerns and plans. Sincerely, Kenneth Prewitt, 
Director.

    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and that concludes my opening remarks.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED]60286.011
    
    [GRAPHIC] [TIFF OMITTED]60286.012
    
    [GRAPHIC] [TIFF OMITTED]60286.013
    
    Mr. Miller. Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman. I won't be long. I, too, 
am a little disturbed. You and I are friends. At least, I 
consider us friends. I know you don't normally operate this 
way. It concerns me a little bit that in light of this 
committee's history--a very interesting partisan history we 
have on the full committee--that we would start the year out on 
this note, start this session off on this note, particularly 
when there's ample time to have at least waited for Mrs. 
Maloney to have returned. It's not as if she's on vacation. 
She's leading a U.S. delegation at an international women's 
conference.
    I think, compounding the fact I believe I'm still the 
youngest Member of Congress. Paul Ryan has about 4 months, I 
think, on your side. He made excellent and compelling points in 
his opening remarks and I am not one, Mr. Chairman, who has 
made up my mind on this issue at all.
    But I would say to the chairman and to my friend, Mr. Ryan, 
whose family I met, I think, when they were out to dinner when 
he first got to Washington, that this is not the way we ought 
to go about doing this. Mr. Prewitt, who's the director? I know 
I see Steven Holmes has come into the room, the writer with the 
New York Times, his article this morning which I hope the 
chairman would allow me to introduce into the record, clearly 
states that the Director of Census would have loved to have 
been invited, to have at least had an opportunity to answer 
what I think are some pretty relevant questions.
    I know that Mr. Waxman offered a piece of evidence that 
suggests that maybe the city of Los Angeles is not in lock-step 
with some of the California cities or local governments that 
would support your bill, Mr. Miller. But at least allow them to 
respond as to why they believe that this post-census local 
review is not cost-effective. If, indeed, it is cost effective 
and will allow us to have an accurate count, then it's 
something that I would be willing to support. It's just at this 
point it doesn't make a whole lot of sense.
    I think all of us support fairness. An accurate count would 
certainly constitute fairness. But anytime that we can--
particularly with this committee, Mr. Chairman, figure out ways 
to infuse at least a perception of fairness, I think we ought 
to be in the business of doing that. I think that all of us in 
the committee--and I do not excuse those on my side for helping 
to diminish some of the credibility of this committee over the 
last 2 years--but anytime that we can take steps to try to 
correct that and repair the image, I think we ought to.
    I thank you for responding kindly to Mr. Davis' and my 
letter to come over to the Congressional Black Caucus Summit 
and provide some words or provide some guidance as to what the 
committee might be doing. But I do think we also have a 
responsibility to the Census Bureau itself to allow Director 
Prewitt--I'd love to hear him explain why is it that he doesn't 
support the legislation that you're offering, Mr. Chairman. I 
don't question the merits of your legislation because we are in 
opposite parties. You're a good man and I'm certain that you 
want a fair count and an accurate count.
    But, it certainly raises suspicions on my side and doesn't 
do anything to foster the type of camaraderie--not to suggest 
that we ought to be agreeing on everything, but at least be 
agreeable in our disagreements. And this--starting off this way 
doesn't do anything to add to that. It doesn't enrich, nor does 
it do anything to correct or repair or rehabilitate the 
battered image of this committee.
    Again, I don't blame you guys solely for that. We certainly 
played a part in that, as well. And I hope my colleagues, Mr. 
Sawyer and Mr. Petri, do not take offense but I'm going to 
follow the lead of my ranking member on the committee, Mr. 
Waxman, and just simply refuse to participate on the grounds of 
process.
    As a new member and a second-term member, I hope that we 
can all begin to work together and work together in better 
ways. Again, I don't expect you guys to agree with us or agree 
with me on everything, but at least let's agree on a fair and 
accurate process, much like the fair and accurate count, Mr. 
Chairman, that your bill seeks to make a reality.
    As I close, I find it somewhat interesting in your letter, 
Mr. Chairman, that you talk about--and again, I don't think 
there is any animus on your part to hold this hearing without 
Mrs. Maloney but I do think it raises legitimate suspicions on 
my side. As you mention in your letter, as we juggle these busy 
schedules, as a member of six congressional subcommittees.
    One of the issues we have in this Congress between Democrat 
and Republicans, an internal issue, is committee ratios. And 
with a six-vote margin between the two parties, the guys on my 
side of the aisle who are lucky to serve on one committee and 
have just one subcommittee. God bless you for having all those 
subcommittees.
    You clearly possess all it takes to do those things, but to 
serve on Appropriations, chair this subcommittee and the 
Committee on Budget--as a member who had one committee for 8 
months his first term in the Congress, you're a good man. I 
hope that one day I have the opportunity to have all of these 
responsibilities but I do hope that we, as we seek an accurate 
and fair count of the general public, that we also look at an 
accurate and fair count in this Congress and try to make sure 
that, to the extent that we can get along a lot better and work 
better together, that we do that.
    Again, I apologize to Mr. Petri and Mr. Sawyer and hope 
that you get a chance to come back before the committee and I 
hope that we have an opportunity to invite Director Prewitt 
because I, too, want to hear, Mr. Chairman, why is it that he 
doesn't support this bill and why he thinks these are efforts 
to micro-manage preparations for the 2000 census. He's made 
some legitimate complaints and I think he ought to have the 
opportunity to answer those questions.
    I apologize to my good friend and new colleague, Mr. Ryan, 
for having to start out this way. And to you, as well, Mr. 
Chairman, but I just won't participate. I hope my colleague, 
Mr. Davis, although he certainly has the right to start when he 
wants to, chooses not to participate either. And again, I thank 
you for the opportunity to have an opening remark.
    Mr. Ryan. If I could, Mr. Chairman, may I ask a quick 
question? Were all of the witnesses that were requested by the 
minority approved?
    Mr. Miller. Yes. The minority asked for four witnesses and 
they were granted every witness they wanted. I thought that 
they might be asking for Mr. Prewitt to be here.
    Mr. Ford. Unfortunately, I'm the least senior guy here on 
the committee, so I apologize for not having more influence in 
this process. But I'd say to my friend, Mr. Ryan, I've only 
been here 2 years, but it seems to me it would be logical to 
invite the director of the organization. The Census would 
implement this plan. You're not that new----
    Mr. Ryan. I'm even newer.
    Mr. Miller. We need to move forward because there are a lot 
of witnesses and I'm disappointed that you're not going to be 
able to stay and listen to the witnesses because we have all 
the witnesses requested by the minority. I think you'd learn 
something from the witnesses. We have very distinguished 
panels, from a mayor and county official to several elected 
officials here. And I think if you want to object to or boycott 
the mark-up, that's one thing. But I'm disappointed that you 
don't want to listen to the statements from the different 
witnesses.
    Mr. Ford. I apologize to all of them. It's just the 
process, Mr. Chairman.
    Mr. Miller. Let me also make a statement concerning Mrs. 
Maloney. I talked to her last week and we tried to juggle the 
schedule around her schedule. Congress is in session. We have 
to move. This is serious times and we have a very short 
timeframe. The census forms are going in the mail next month. 
And we can't just put this off for another couple weeks.
    This is a process as we're going to have it into full 
committee. On the floor, there are going to be plenty of 
chances to debate this issue. Mr. Prewitt is going to be 
scheduled to a hearing with the full committee in the very near 
future.
    Mrs. Maloney found time to fly back from the Hague to a 
political event in Virginia but she didn't find this as 
important, obviously. And that was her decision. But, you know, 
we're going to have, I think, a very good set of witnesses and 
then we have every witness the minority requested. We didn't 
object--and there aren't many cases that happens all the time.
    We do have some good ones. We have two Members of Congress. 
I'm sorry you won't even give them the respect to stay here for 
it, but I think we would like to call the first two witnesses 
forward and I see Mr. Sawyer and Mr. Petri. They can come 
forward.
    Mr. Ford. I'll talk to them on the floor. I'll see you on 
the floor, Tom.
    Mr. Miller. Thank you very much. I know one of your 
witnesses came from Los Angeles, so I'll give him the courtesy 
and I appreciate all the members here.
    Colleagues, Mr. Petri and Mr. Sawyer, thank you very much 
for coming. Ten years ago you all were in part of this seat. 
Mr. Sawyer, you chaired the committee back then. Mr. Petri, I 
think you were the ranking member, is that right?
    Mr. Sawyer. Not 10 years ago.
    Mr. Miller. Six years ago, OK.
    Mr. Sawyer. That was Tom Ridge of Pennsylvania.
    Mr. Miller. OK, that's right. Now Governor Ridge. Let me 
welcome both of you and let's go with your opening statement, 
and Congressman Petri, if you'd like to proceed.

 STATEMENT OF HON. THOMAS PETRI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Petri. Thank you, Mr. Chairman. Fellow colleagues. I 
appreciate the opportunity to talk about the importance of a 
post-census local review. As a member of the census 
subcommittee shortly after the 1990 census, I saw first hand 
the important role played by a post-census review in achieving 
an accurate count.
    Clearly, the Census Bureau is staffed by a team of 
competent professionals and those individuals are augmented 
every 10 years by an army of committed, short-term workers. But 
no matter how qualified and how committed a team you assemble, 
no project designed to count 280 million people on a 
continental scale will ever be perfect. So there ought to be a 
mechanism available for a check, then a double-check, and maybe 
even a check again.
    Now, it's been said by some that the era of big government 
is over. Yet, it's sort of symbolic of what we associated with 
the era of big government and arrogance in Washington that we 
can assume that a centrally planned and directed census could 
reach unerringly into every community and knock on every door. 
It's just not going to happen. Mistakes are inevitable.
    We're fortunate enough to have at our disposal a resource 
capable of correcting these mistakes. Now, the resources are 
the local officials of our land. The committed professionals 
who live and work in our communities possess a knowledge and a 
perspective not even our best statisticians here in DC could 
match. So, we ought to encourage their participation and 
welcome their assistance. They have a strong incentive to have 
an accurate and complete count in their communities. And rather 
than having them knock on the door and trying to throw 
information over the transom, there should be an orderly 
process where they can look at what's been done in their 
communities and offer comments and corrections to it. My 
understanding is that that's what your legislation outlines.
    A post-census local review acts like an independent audit, 
bringing in those individuals with an outsider's perspective 
and a specialist's focus to assure the Nation that nothing's 
overlooked.
    The importance of such an audit hit home to me and to my 
constituents when a small town in my district, Montello, WI, 
received the preliminary census count for their community back 
in 1990. To the surprise of the residents of Montello, the 
Census Bureau reported they had several hundred fewer people 
than they expected, that their town had shrunk in size. This is 
quite an error for a town of 1,300 people. During the post-
census review, the local officials were able to demonstrate 
that the census had missed an entire ward of the city. And 
that's happened in other instances in my district, as well. 
That ward was promptly added and the town was returned to its 
former status.
    Such problems, if not caught, affect everything from 
Federal and State funding and political redistricting to the 
pride and self-image of communities across our land. The Census 
Bureau's decision to provide no mechanism for review is either 
a sign of the Bureau's recklessness in addressing accuracy 
problems or a sign of its arrogance in believing that it can 
avoid all such problems in the first place.
    So, I'd like to commend our chairman for having made a 
commitment to make available the resources necessary to make 
census 2000 the most accurate in history. A vital component in 
that effort is a post-census local review. So, I'd urge my 
colleagues to ensure its inclusion as a part of census 2000 by 
legislation, if necessary, or by decision of the Bureau itself.
    Mr. Miller. Thank you, Mr. Petri.
    Now, Mr. Sawyer.

 STATEMENT OF HON. THOMAS SAWYER, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Sawyer. Thank you, Mr. Chairman. It is a pleasure to be 
here with my colleague, Tom Petri, again on this topic and to 
see so many old friends at the witness chairs behind me.
    If I could just step aside for a moment, I would urge you, 
Mr. Chairman, to involve the Bureau itself in this process. 
When we were doing oversight, it wasn't a matter of the 
minority requesting the Census Bureau to come before us. It was 
a matter of fundamental courtesy to the administrative agency 
that is responsible for this large and complex undertaking. If 
it were possible, I would hope that you could find the time to 
do that prior to a markup.
    Having said that, I really want to thank you and the 
ranking member for inviting me to testify this morning. I know 
that your effort is well-intended and I welcome this 
opportunity.
    Like your effort, the 1990 post-census local review was 
well-intentioned, but an ultimately flawed program to tap the 
knowledge of local officials in the final stages of the census. 
As a former mayor, I understand the importance of involving 
mayors and county supervisors and others to help identify 
obvious gaps.
    The fact is, though, that in the end the PCLR in 1990 
became a frantic attempt to make up for deficiencies in 
traditional counting methods. We found that the shortcomings of 
those methods were widespread and systemic and it was 
ultimately futile trying to find missing housing units and 
determine who lived there 6 months earlier in the final hours 
of the census.
    The depth and the breadth of the undercount was an obstacle 
that late desperation in the guise of persistence simply could 
not overcome. You've heard some of the hard facts about PCLR. 
It cost nearly $10 million; it added 125,000 people, some 12 
percent of whom were simply wrong. It engaged only one quarter 
of the governments that were eligible to participate.
    And as a result, recognizing that its counting efforts were 
falling short, the Census Bureau also initiated a re-canvas of 
selected neighborhoods in the late summer and early fall of 
1990. In all, the Bureau visited 20 percent of all blocks in 
the country that second time. The combined effort increased the 
final census count by one-tenth of 1 percent.
    When Tom and I got together, following the 1990 census to 
do our evaluation, we quickly came to the conclusion that 
building an accurate address list was an essential element to 
an accurate census. And frankly, we were amazed to learn that 
each 10 years, the Census Bureau starts from scratch to build a 
new address list.
    It was clear from our hearings that involving local 
governments in the development of an address list was critical. 
It was equally clear that in involving them so late, at the end 
of the process, in the frantic efforts to close out the census, 
produced headaches and inaccuracies for both the Census Bureau 
and local officials.
    Early involvement was far better for both Census Bureau and 
local officials. Unfortunately, the condition of the laws at 
the time made that quite difficult and so, at the request of 
the Census Bureau and the Postal Service, we developed together 
the Address List Improvement Act to address these legal 
constraints.
    By using this new authority, the Bureau's redesigned census 
relies on the knowledge of local governments to compile and 
verify a master address file of all housing units before the 
census starts. Unquestionably, this kind of accurate address 
list will substantially increase the likelihood that all 
households will receive a form and that enumerators will visit 
all those households.
    Equally important--shifting a thorough review of the census 
and address lists to the front of the process will promote a 
higher quality census since information collected late in the 
process is unquestionably less reliable.
    As the GAO and other evaluators have discovered, as 
information moves further away in time from census day, more 
and more mistakes are made and the quality of the data is 
greatly diminished.
    I understand, Mr. Chairman, that your legislation to 
require a 1990's-style post-census local review and every 
census is a well-intentioned effort to bring knowledge of local 
officials to bear on the census process. That is an admirable 
goal and one that should run through all stages of censuses, 
including planning and preparation and through its 
implementation, not focused on the end of the process.
    I really must strongly counsel the subcommittee against 
tying the Bureau's hands with specific operational 
requirements. Particularly, ones that run against the 
professional judgment of Bureau staff and may not be wise in 
the light of past experience.
    In 1990, post-census local review held out great promise 
for local governments to improve the accuracy of a census that 
more and more Americans were beginning to shun. We face the 
same problem coming into 2000. In the end, for all of its 
efforts, the program didn't meet expectations. But even if it 
had, we cannot not automatically assume that a repeat 10 years 
later, based on a census whose design is grounded in the 
lessons of the 1960's, is justified.
    This country is changing more profoundly and rapidly than 
we're able to measure. We will not be the same country in 2000 
that we were in 1990 and we must be able to adapt our tools of 
measurement to accommodate that change. That's why the Census 
Act gives the Secretary of Commerce such wide latitude in 
determining how best to conduct the census.
    Now, I agree with you that the Congress has the 
constitutional responsibility for taking the census and we 
should not look the other way while the Census Bureau plans 
each decennial count. But I would suggest that perhaps the most 
constructive role for Congress is ensuring that the Bureau is 
guided by sound scientific and operational knowledge generated 
both from within the agency and outside experts and 
stakeholders. You and I may have differed on some of those 
details but I think we both have agreed on that fundamental 
principle.
    Following the 1990 census, the Secretary of Commerce 
established an advisory committee comprised of a wide range of 
stakeholder organizations. That 2000 census advisory committee 
has prepared a final report that includes recommendations for 
improving the accuracy of the address file before the census 
and housing unit coverage during the census. The committee 
unanimously endorsed a focused, local review program that gives 
local governments an opportunity to review housing units at 
various levels of aggregation, depending on their ability to 
participate in the pre-census address compilation program.
    The committee also endorsed a large, post-enumeration 
survey that can serve as the basis for correcting overcounts 
and undercounts in the census. We should not second-guess the 
advice of this broad group, nor the career professionals at the 
Bureau itself. Nor should we render their substantial effort 
meaningless by negating or modifying key elements of their 
proposals, which fundamentally have to work as a system, all 
together, and not as individual items.
    I am really grateful to you, Mr. Chairman, for your 
continued focus and your detailed interest and I once again 
close by the plea that--as long as we're mentioning Steven 
Holmes so much this morning, I refer back to an article that he 
wrote in November 1998 that was headlined ``Census Chief's 
Dream: Grand Tally Minus Politics.'' I take that desire 
seriously. I know you do, too. The sidebar is a quote from him 
that says, ``Leave us alone and let us do our job is a message 
to a glut of overseers.''
    Thank you, Mr. Chairman, for allowing me to testify this 
morning. I look forward to answering any questions.
    [The prepared statement of Hon. Thomas Sawyer follows:]

    [GRAPHIC] [TIFF OMITTED]60286.014
    
    [GRAPHIC] [TIFF OMITTED]60286.015
    
    [GRAPHIC] [TIFF OMITTED]60286.016
    
    [GRAPHIC] [TIFF OMITTED]60286.017
    
    [GRAPHIC] [TIFF OMITTED]60286.018
    
    [GRAPHIC] [TIFF OMITTED]60286.019
    
    [GRAPHIC] [TIFF OMITTED]60286.020
    
    [GRAPHIC] [TIFF OMITTED]60286.021
    
    [GRAPHIC] [TIFF OMITTED]60286.022
    
    [GRAPHIC] [TIFF OMITTED]60286.023
    
    Mr. Miller. Thank you, Mr. Petri, Mr. Sawyer. We are 
getting very close to the beginning of the census. The forms go 
in the mail----
    Mr. Sawyer. It's true, but the forms are not going in the 
mail next month.
    Mr. Miller. A year from now and, you know, we don't have a 
plan. In the fall of 1997, in the Commerce-Justice-State 
appropriation bill, there was money provided and a requirement 
that it prepare for two tracks. And last year, during the 
appropriation process, I was at a hearing with Secretary Daley, 
and they said, ``Where is our plan? We paid for a plan.'' We 
still do not have a plan.
    In fact, I saw Dr. Prewitt this morning and you know, 
hopefully we'll get one next month. I mean, we're getting 
dangerously close to starting this process. The Bureau has 
spent the past years on an illegal plan. You know, we said it 
was illegal back during that Commerce-Justice debate in the 
fall of 1997. Six Federal judges last summer said it was 
illegal. And, the Bureau kept moving full speed forward on an 
illegal plan. And, if we're going to have a successful census, 
we can't just keep, you know, putting off the decision. And 
that's the reason we need to move forward on this.
    And on this post-census local review, I've had two field 
hearings: One in Miami and one in Phoenix. And, a lot of the 
witnesses here are local officials from cities and counties. 
And basically, I'm hearing from all of them, ``We want to have 
a chance to check it after the fact.'' And it's hard for me to 
understand why--I know it'll be a pain for the Census Bureau. I 
will admit that it's a pain to have to do that. But we all have 
audits on our books and such. I mean, we expect to have some 
checks. You know, they're not perfect.
    I don't see where anybody would object. You're a city 
councilman and county commissioner. I mean, there's only one 
component but it really gets back to the issue of trust. I 
mean, you're more familiar with what happened in 1990 than I 
am. But, you know, this one is already tarnished because of the 
partisanship and the bottom line--we want to count everybody. I 
have proposed in my plan that we'll spend all of the money and 
resources we need. I'm tossing out ideas. The Census Bureau, 
they're saying, ``Well, maybe next month we'll get a plan to 
you.'' I mean, that's basically what we're told. That's wrong. 
We should have had the plan last summer. Not in March or April 
of the year before we do it.
    And so there's our frustration, and as I say, Mr. Prewitt 
will be before the full committee soon. They're working on a 
date with Secretary Daley before the Appropriation Committee on 
which I serve.
    So, I just don't understand, you know, why anybody would 
object to it. $10 million on a $5 billion thing? I mean, you 
can't say it's a cost factor. I mean, you know, $10 million is 
real money, I would agree, but to help build the trust and 
confidence in itself, you know, I just don't understand what 
the objection is, besides it's the pain and the Bureau doesn't 
want to have anyone looking over their shoulder after the 
numbers. But when you have an illustration like Congressman 
Petri has, a very specific small town, Mayor Archer was saying 
how 45,000 people were added. Don't those people count?
    Mr. Sawyer. Mr. Chairman, those people absolutely count. I 
have two examples from my own district of exactly the same kind 
of thing. They were discovered in post-census local review. 
They would have been discovered using the process the Census 
Bureau proposes ahead of time and would not have engaged in the 
kind of costly and desperate efforts to correct at the end.
    I don't think there's anybody here, as Mr. Ryan said, who 
is not entirely for the most accurate census that we can 
possibly muster. But I must reiterate again that having the 
Bureau here--it would really be the people to talk to about a 
planning process and an implementation process. Not me, not 
Tom. But the Director of the Bureau that is responsible for it.
    So, before you mark up this bill, I would hope that you 
would take advantage of that most basic expertise that most 
people around the world concede makes the U.S. Census Bureau 
the most extraordinary demographic statistical agency ever 
devised by the mind of humankind.
    Mr. Miller. Thank you. We have a number of elected local 
officials here. A mayor of Richmond, a county commissioner from 
Palm Beach County, FL, so we have some other local officials. 
And they're the ones that have to implement it. So, we're 
anxious to hear from them. And with that, I will call on Mr. 
Davis.
    Mr. Davis of Illinois. Thank you, Mr. Chairman. And let me 
just say that I share your concerns about planning. I've always 
been told that he who fails to plan, plans to fail. But it's 
also difficult to plan if you don't know what the playing field 
is going to be and if you don't know what you're going to be 
playing with. Whether you're going to be tossing one way or 
going another way, or what the guidelines and parameters are.
    And, so it seems to me that every time the Census Bureau 
gets ready to move, here comes another idea, here comes another 
possibility. I'd hate to be in that position trying to make a 
firm determination.
    I've only got two questions. One, Mr. Petri, you talked 
about this particular town and these people who were missed. 
When they were found, I mean, were they listed any place? Or 
did you discover what had actually happened or why they were 
missed?
    Mr. Petri. Well, I think they just somehow left out a ward. 
They didn't realize it was part of the town and thought maybe 
it was part of the county and it didn't get counted and it 
wasn't included. When they looked at the numbers they said, no, 
we know we have more people here in Montello.
    Mr. Davis of Illinois. Were they listed in the county?
    Mr. Petri. No, they just dropped out of the system. It 
happened earlier in the 1980 census in Markizan, where they 
missed about 25--there were four wards; they missed one ward.
    I don't know if they were, you know, counted at some stage 
in the process and then the paper got lost or misfiled, or 
mistabulated by the Census Bureau or whatever, but it does 
provide a chance for the local people who know what the facts 
are or pretty close to the facts, to see a number and they say, 
``This can't be.''
    To have some process for them to be able to correct that or 
have a chance to be heard and if they can make a legitimate 
case, then have it corrected. Rather than being told, well, too 
bad. We're from Washington and we did the best we could and you 
just fell out of--you know, this happens to people in this big 
country of ours. That's not what we want to convey if we can 
avoid it.
    So, providing for some mechanism--you know, Tom said that 
the study commission does provide for some post-census audit, 
maybe not as necessarily an absolute requirement, but as a 
feature of what they feel would be a good procedure.
    So, I'm not sure the differences here are all that great. 
My understanding is that the chairman's bill basically tries to 
codify the procedure that was followed in the last census. The 
experts evidently met and referred to that and said this would 
be a good practice, to have some procedure. So it sounds like 
we're fishing around to find parts and differences about 
something that may not really be that great.
    I'm concerned, though, that at some point we should be 
thinking about trying to simmer down on all of the shooting 
back and forth and worry about building trust in the census 
process. Because at the end of the day, for it to work, however 
it's done, it's going to require a confidence on the part of 
the American people to voluntarily participate and step 
forward. We had lots of hearings about that. We're very 
concerned that people realize that any data that goes into the 
census that they tell is absolutely private and cannot be used 
for law enforcement or for other reasons. That has to be 
communicated to people over and over again so they know this is 
not an inspection. This is a census because the data itself has 
great value to our country, both for our democracy and for our 
economy. Relying on the government, isn't going to work as well 
as it would work if all Americans would voluntarily stand up 
and be counted. And, it's part of your obligation. You have a 
few obligations as a citizen, in addition to rights, and one of 
them is to participate in the census every 10 years. You 
benefit as a citizen. Our whole country benefits by people 
assuming that small degree of responsibility.
    Mr. Sawyer. Let me second that. There is no single 
commodity that is more critical to the success of any census 
than the confidence of the citizenry of the country. Every 
resident of this Nation needs to feel confident that they can 
be counted and be counted in total privacy and confidentiality. 
It was why we took such care in putting together the address 
list legislation, so that in working together with the Postal 
Service, for the first time in the 200-year history of the 
Nation, that people could have confidence that their 
confidentiality was protected. Nothing, I think, in the end, is 
more important than that.
    Let me just add an observation. Those two words, ``trust 
me,'' are certainly something that sends shivers up and down 
the spines of many Americans. The other two words are ``micro'' 
and ``manage.'' [Laughter.]
    Striking a balance between those two is really what the 
oversight process is all about.
    Mr. Davis of Illinois. Mr. Chairman, I just have one 
question for Representative Sawyer, if I could. You're 
recognized as a real expert in this business. I mean, you were 
chairman of the subcommittee in 1990, plus you've devoted a 
tremendous amount of your own time to actually digging into it 
and trying to understand it.
    Mr. Sawyer. As most of us do in areas that we focus on----
    Mr. Davis of Illinois. After all the reviews after the 1990 
census, less than 125,000 people were added. You've looked at 
472. Are you optimistic that if it was implemented that we'd be 
adding much or changing much or----
    Mr. Sawyer. I believe very strongly that local government 
involvement early and continuously throughout the process is 
critically important to its success. Building in an entire 
post-census local review as the vehicle to achieve that local 
involvement, I think, places great risk on the single asset 
that is in shortest supply after the completion of the count. 
That is, time. Because the Bureau and the Commerce Department 
are mandated constitutionally to bring the process to a close 
and to transmit numbers to the Congress by December 31 of the 
census year.
    Moving that local involvement much more deeply into the 
process early and throughout, I believe, would have found not 
only most of the mistakes that were found in post-census local 
review, some of which were fraught with mistakes themselves, 
but would have helped to diminish the mistakes that were 
systemically built into the actual conduct of the census 
throughout. It would have given the time necessary to do the 
real fine combing of the numbers at the end, rather than being 
preoccupied with what turned out to be a desperate effort to 
correct what was by then clearly understood to be a profound 
undercount in the census.
    Mr. Davis of Illinois. Gentlemen, I thank you very much and 
Mr. Chairman, I have no further questions.
    Mr. Miller. Thank you. I will start going on this 5-minute 
rule when we get to the next panels, too. We would now call on 
the other members of the committee and we're going to--if you 
don't have any questions now. We have three more panels with 
some really good witnesses, too. It's not a problem if you 
pass.
    Mr. Sawyer. Mr. Chairman, I would strongly suggest that the 
people sitting behind me can answer many of the questions that 
you have----
    Mr. Miller. Right.
    Mr. Sawyer [continuing]. And while we can offer opinion and 
experience from 1990, they bring a good understanding of where 
we have been and where we are going.
    Let me reiterate one more time, however, the people who 
know it best are the Bureau and if you can't have them before 
this subcommittee, I would strongly urge you to have a full 
committee hearing. Because to proceed with this without hearing 
from the Bureau, I think, would be a mistake.
    Mr. Miller. Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman. As important as the 
census has become, I would think it would be extremely 
important to have some ability for local communities whose 
vitality in many cases depends upon the outcome of the census. 
They ought to have some way to examine these numbers and make 
sure that something hasn't been missed. And it seems to me 
that's the procedure that you're advocating.
    I mean, I represent eight counties and a number of small 
communities in northern California and I tell you, I just think 
it's inherently fair and appropriate that the local communities 
are being counted in many cases by outsiders, or directed by 
outsiders, that they ought to be able to examine those numbers 
and make sure that everything got counted and is appropriate 
and I assume we'll hear directly from representatives of 
various communities, perhaps to that effect.
    I know the Census Bureau or I understand they don't like 
this because they've got the countdown and they want to move on 
to finalizing it. But it does seem to me that this is just an 
inherent element of due process, I think. And Mr. Petri, I 
might just ask you, when this happened the last time, I mean, 
this was able to be done and it didn't destroy the system, did 
it?
    Mr. Petri. Not at all. And I think for the census to work 
well, you want the active cooperation of local officials and to 
get that they have to figure that putting some effort into this 
process is worthwhile. And whether they put the effort in or 
not, it's not really going to make any difference because if 
the number's wrong, they can't correct it or they have no 
assurance that they're going to be able to correct it, I think 
this would undermine the atmosphere that you need to have to 
elicit as much voluntary cooperation throughout the process. I 
have no objection and I think they certainly should be working 
very closely for a prolonged period with local officials. But 
assuring that at the end of the process they have an 
opportunity to take one last kick at the can to make a case if 
they think something's undercounted and have people review the 
numbers. Seems to me to be fundamental in order to maximize 
voluntary cooperation and the feeling that their involvement 
will make, or has the potential of making some difference. It's 
not a waste of time. It's not going to be decided somewhere 
else if they find some mistake, they can actually influence the 
final number.
    Mr. Doolittle. Thank you and thank you, Mr. Chairman.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. Well, I'd like to direct my questions toward my 
colleague from Wisconsin, Mr. Petri. You must be very proud of 
Wisconsin now because, you know, in 1990, I believe, Milwaukee, 
WI recorded some of the highest mail response rates in the 
country.
    I'd like to draw upon your experiences from the 1990 census 
and ask you how did you encourage local officials to 
participate in the post-census local review effort? What was 
the response you got from the local officials? What is your 
opinion, how can we improve that? How do we, as Members of 
Congress, communicate that? How can the Census Bureau get these 
folks involved so we can get this accurate census? Just based 
on your experiences, how do you think we can address that?
    Mr. Petri. No, I think it's very important. Wisconsin is 
proud of the fact that we participate in the census 
enthusiastically and completely and, in fact, I'm told that if 
they had implemented--and I'd be happy to stand corrected--but 
if they had implemented in the last census the adjustment 
process and would have provided for adjusting down, as well as 
up, they would have actually adjusted our number down, even 
though no one disputed that we had an actual overcount.
    The mayor of Milwaukee, Mayor Norquist, made it a major 
objective of his administration to fully participate; our 
Governor did; local officials throughout the State did; the 
Members of Congress in both parties and Senate from our State 
sent out frequent newsletters and public service announcements 
on the radio. We've got the television stations to cooperate 
with public service announcements, making it very clear to 
people that there was no risk and there would be a reward for 
their communities and their State in participating fully and 
enthusiastically in the census and it was part of their duty as 
a citizen to do that step.
    And, I think the word got out quite well and we recruited 
actively, tried to get a lot of qualified, retired people from 
various communities to work part-time organizing the census as 
various outreach efforts into different communities in our 
State and that was very successful, too. We got a lot of good, 
local talent and they're already coming forward again. They may 
be to your office, as well, saying ``I participated in the 
census 10 years ago and I'd like the opportunity to do it 
again, but you know, I keep calling that 888 number and no one 
answers. I get a recording.''
    Mr. Prewitt, I wanted to try that number myself and see.
    Mr. Sawyer. They ought to call him and ask him about that.
    Mr. Petri. Yes.
    Mr. Sawyer. One more point.
    Mr. Ryan. Sure.
    Mr. Sawyer. A very brief addition to it. I think Wisconsin 
was a signal effort and an indication to the rest of the 
country of what could have been done and what needs to be done 
in 2000.
    Much of what happened in Wisconsin was reflected in similar 
kinds of efforts throughout the Midwest. We had great 
difficulty not for lack of effort, but lack of success on both 
coasts of the United States, people have posited the reasons 
for that. Some of it cultural. There are a variety of things. 
It appeared to have little to do with income or anything else. 
There was an underlying difference in terms of rate of 
participation.
    Even that notwithstanding, however, and all of the effort 
that was put in Milwaukee, Milwaukee continued to have an 
under-count that was twice the statewide average. That ought to 
be of concern to all of us. Because it means that there is a 
disproportionate undercount of various populations and when we 
wind up with that, we wind up with people who simply begin to 
disappear and who are not fully counted and fundamentally don't 
function as full citizens as those who are fully counted do.
    Mr. Ryan. What do you think that the source of that problem 
may be? And Congressman Petri, when these advertisements were 
conducted, when the promotional activities were done, were 
confidentiality and privacy issues at the forefront of the 
public service announcements? And were those issues addressed 
right away so those concerns were allayed?
    Mr. Petri. Absolutely. We made it very clear and the Census 
Bureau took the lead and developed various models and had put 
various announcements out there that the law prohibited this 
data to be used for anything other than census purposes. And 
that is a principle that has existed, I think, if not from the 
beginning, for a very long time. We underlined it repeatedly 
and I think you can't just say it once. I think finally we got 
the message out there that this, in fact, was the case and 
people relied on it. I think that trust has been maintained. I 
don't know of a single instance anywhere in the country where 
the census bureau data has been misused for other purposes.
    Mr. Ryan. Good. Thank you very much.
    Mr. Miller. Mr. Souder.
    Gentlemen, thank you very much for being with us today. We 
appreciate it. Sorry for the delay.
    Mr. Sawyer. Thank you very much, Mr. Chairman.
    Mr. Miller. And I'm sure we will continue to get your 
insight and advice as we go along.
    Mr. Sawyer. Thank you, sir.
    Mr. Miller. We'll move right on to the next panel. I'd like 
to call Mr. Blackwell, Mr. Kaine, and Commissioner Roberts. Mr. 
Whitener is ill this morning and today and so he is unable to 
join us, and Mr. Bourey from Phoenix has to catch a flight, so 
we're going to ask him to join this panel, if that's OK. And if 
the four of you all would come forward and then I would have 
you take a seat because I'd like to call on my colleague, Mr. 
Foley, to make a special introduction.
    Well, we thank the four witnesses for being here today and 
before we go with your opening statements, we have one of our 
colleagues, my colleague from Florida, Mr. Foley, who wants to 
make a special introduction of one of the witnesses. Mr. Foley.

STATEMENT OF HON. MARK FOLEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Foley. Thank you very much, Mr. Chairman. And I do want 
to take a moment to introduce to the panel a distinguished 
public servant, serving now in her 12th year on the Board of 
County Commissioners and a former mayor of the city of West 
Palm Beach, one of the largest--in fact, the largest city in 
Palm Beach County, the honorable Carol Roberts.
    She brings powerful testimony to the benefits of the bill 
being considered by your committee today. Of course, I'm 
speaking of the issue of post-census local review, a procedure 
that allows local officials the right to review census results 
and inform census officials of the errors missed or 
undercounted by the census. In 1990, the census missed over 
20,000 people in Palm Beach County. In the city of Green Acres 
alone, 10,000 people were not counted, mostly because the 
seasonal residents were out of town.
    Luckily, post-census review by local officials like 
Commissioner Roberts helped correct the undercount. So, I 
believe she will be able to provide extremely important and 
valuable testimony and I welcome her to our capital city. Thank 
you, Mr. Chairman.
    Mr. Miller. Thank you, Mr. Foley. Thanks for being with us 
here today. I'd like to ask all four witnesses if they'd stand 
and we'll swear you in for your testimony.
    [Witnesses sworn.]
    Mr. Miller. And we will begin now with opening statements. 
And because of his need to catch a flight, if no one objects, 
we'll go with Mr. Bourey, who testified with us about 10 days 
ago in Phoenix, AZ. And so, welcome.

   STATEMENTS OF JAMES BOUREY, EXECUTIVE DIRECTOR, MARICOPA 
  ASSOCIATION OF GOVERNMENTS; KENNETH BLACKWELL, SECRETARY OF 
STATE'S OFFICE; TIMOTHY M. KAINE, MAYOR, CITY OF RICHMOND; AND 
  CAROL A. ROBERTS, COUNTY COMMISSIONER, PALM BEACH COUNTY, FL

    Mr. Bourey. Thank you, Mr. Chairman, committee members, and 
thank you four panelists for allowing me to go first so I can 
catch what is, basically, the last flight out today to Arizona.
    I'm the executive director of the Maricopa Association of 
Governments, a body that represents 24 cities and towns, 2 
Indian communities, and 1 county in the Phoenix metropolitan 
area. I also serve as representative of the International City-
County Management Association on the Census Advisory Committee. 
ICMA members represent more than 3,000 local government units 
in the United States. I've also been asked by the National 
Association of Regional Councils to represent them, as well, on 
census issues.
    I appreciate the opportunity to be with you here today to 
present testimony. I strongly support the reinstatement of a 
post-census local review for census 2000. I cannot see why 
anyone would object to providing local governments the 
opportunity to obtain a more accurate census count. I work in a 
9,200-square-mile area with almost 3 million people. Since 
1990, we've added 683,000 new residents, more than the 
population of Washington, DC. While the Census Bureau is 
compiling its master address list during the next year, we 
could be adding more than 40,000 new housing units. A post-
census local review provides a safety net for identifying 
recently constructed units. The two maps that were provided to 
the committee members earlier today demonstrate some of the 
magnitude of growth in our region.
    Much has been made about the limited participation in the 
post-census local review program in 1990. In Arizona, however, 
out of the jurisdictions surveyed by the Department of Economic 
Security, 44 out of 49 participated. I also believe that many 
more jurisdictions actually participated than statistics would 
suggest. Many jurisdictions reviewed preliminary counts and 
they didn't find the need to make an adjustment. In our region, 
post-census local review resulted in the addition of 3,690 
dwelling units and by our estimation, almost $37 million in 
Federal and State funds came about because of that.
    Our cities were really satisfied with the outcome of the 
post-census local review process in 1990. While it added about 
a percent to the region, some cities increased very 
significantly. Many cities have expressed that support for the 
program.
    Some argue that a post-census local review is not necessary 
because the Census Bureau is providing local communities an 
opportunity to recommend updates to the address list prior to 
the census. And we commend the Census Bureau for that, for this 
pro-active stance. But we believe the post-census review is 
also needed.
    The total reliance on the update process, the address 
update process, could lead to serious undercounts for several 
reasons. Many local governments in the United States are not 
participating in a LUCA Program, either because they are 
unaware of it or because they don't have resources to be able 
to participate or it's so far ahead of the census.
    Second, there's a massive number of changes that need to 
take place in the address file and that's going to make it very 
difficult for the Census Bureau to incorporate those changes 
and make sure all the housing units are accounted for. One of 
our cities has 50,000 housing units that were listed. We have 
to add 22,000 housing units to that 50,000. So, the changes are 
very, very significant.
    In addition, the limited timeframe that our local 
governments have had to review the address file, 90 days for 
the mail-out mail-back, and only 43 days for the update leave, 
may preclude some of them from identifying missing units.
    Should post-census local review be reinstated, I would 
expect a significant participation rate from local governments 
because this technological enhancement since the 1990 census 
will make it far easier for them to identify the discrepancies.
    Many jurisdictions will already have had a start on the 
review because of the address file review that will have been 
taking place. Substantial publicity over the sampling debate 
and the billions of dollars that are at stake for census 2000 
have made many local governments more aware of the importance 
of an accurate count.
    And finally, the efforts by local governments to advocate a 
post-census local review will create a momentum that, I think, 
will lead to their participation.
    While carrying out a post-census local review is certainly 
desirable, it needs to be accompanied by other census programs. 
I support additional resources for the census as long as those 
resources are deployed wisely. Increasing funding for programs 
that encourage people to fill out their census questionnaire 
will not be successful, however, if they don't have the census 
questionnaire to begin with. More resources are needed 
immediately to better enable the Census Bureau to assemble and 
verify the units on the master address file.
    At a census 2000 roll-out meeting in Phoenix on January 27, 
I heard Census Director, Ken Prewitt, remark that the census is 
like a portrait of the American family with all its dimensions 
and diversity. Without a post-census local review to help 
achieve a more accurate census, this family portrait, I feel, 
will be incomplete.
    Mr. Chairman, committee members, thank you very much for 
accommodating my schedule and providing an opportunity for me 
to testify. I'd be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Bourey follows:]

    [GRAPHIC] [TIFF OMITTED]60286.024
    
    [GRAPHIC] [TIFF OMITTED]60286.025
    
    [GRAPHIC] [TIFF OMITTED]60286.026
    
    [GRAPHIC] [TIFF OMITTED]60286.027
    
    [GRAPHIC] [TIFF OMITTED]60286.028
    
    [GRAPHIC] [TIFF OMITTED]60286.029
    
    [GRAPHIC] [TIFF OMITTED]60286.030
    
    [GRAPHIC] [TIFF OMITTED]60286.031
    
    [GRAPHIC] [TIFF OMITTED]60286.032
    
    Mr. Miller. Thank you very much for being with us. I know 
you represent a very large number of cities in the greater 
Phoenix area, Maricopa County, and I appreciate your testimony.
    Next, we'll just go with Mr. Blackwell and when you have to 
leave for your flight, we'll understand. Mr. Blackwell, are you 
in town because of the Secretary of States' meeting?
    Mr. Blackwell. Both the Secretary of States' meeting and 
census meeting.
    Mr. Miller. Both. Great. Well, the new Secretary of State 
from the State of Florida is one of my constituents, by the 
way. She's a newly elected member of the State Cabinet.
    Mr. Blackwell. Katherine is very informed and very 
effective.
    Mr. Miller. Thank you. Yes. Mr. Blackwell.
    Mr. Blackwell. Good morning, Mr. Chairman and members of 
the subcommittee. I am Ken Blackwell, Secretary of State of 
Ohio and co-chairman of the Census Monitoring Board. Thank you 
for the opportunity to testify on the merits of post-census 
local review. You all received a copy of the February report to 
Congress from the congressional members of the Census 
Monitoring Board. I would like to offer the executive summary 
of that report into today's record.
    In our report, the congressionally appointed members of the 
Board recommended restoring post-census local review to census 
2000. In our opinion, a final quality control check for local 
governments to verify the numbers before they are set in stone 
is absolutely essential to building trust in the census. Local 
review will build trust in the census. Local review will result 
in better counts. Local review will correct mistakes. And, 
local review will find people and houses that have been missed. 
And finally, local review will put people counted in the wrong 
place into the right place.
    As a former mayor of Cincinnati, I assure you putting 
people in the right place is very important. One street is 
sometimes the only difference between money for the city and 
money for the county. That might seem like small potatoes here 
in Washington, but it means a lot in Cincinnati and it means a 
lot in Peoria.
    This local review will do all of these things in 2000, just 
as it did in 1990. But the most important thing it will do, if 
the Census Bureau allows it, will be to build trust in the 
process and the numbers that determine political representation 
and funding for vital public services. Trust is the most 
important benefit.
    I worry that trust in the census is eroding. As part of our 
oversight, the congressional members of the board have 
aggressively pursued information from local governments 
involved in the census process, in letters and at conferences, 
in personal interviews and over e-mail, we have asked the same 
questions repeatedly. What is your experience with the census? 
What is your experience with LUCA? What is your experience with 
post-census review?
    Repeatedly, we get the same answers. LUCA is a good idea, 
but it falls short of its promise. Local governments are 
frustrated with the process. Let me give you a quick example.
    Last week, the Monitoring Board received an e-mail from the 
city planner from Fort Wayne, IN, which happens to be in 
Representative Souder's district. Allow me to read from it 
verbatim.

    As of today, Groundhog Day, 1999, despite being promised 
the address list in November 1998, over a dozen calls to the 
Bureau, the involvement of a Chicago bureau supervisor, 
fingerpointing by the Bureau among Chicago, Jeffersonville and 
Suitland, and the involvement of our U.S. Congressional Office, 
we still do not have a printed address list and instructions 
for completing the process.

    As of today, Fort Wayne has received the materials. But you 
can see the frustration. Local governments are not satisfied 
with LUCA as their final input into the census. Post-census 
local review is a valuable last quality control check.
    It will not find everyone missed in the census, but it will 
find people. More importantly, it will find people in the exact 
block where they live. I can tell you that post-census local 
review added or located hundreds of thousands of people during 
the 1990 census. Members of the Bureau will counter that it 
doesn't add that many, or it isn't or wasn't cost effective, or 
it won't fix the whole problem. We can argue until the sun sets 
over how to measure additions and contract and corrections or 
cost effectiveness or even the extent of the problem.
    There are people here today who can tell you better than I 
how the numbers add up and how to quantify the value over 10 
years of every single person correctly located in the census. I 
urge you to listen to them because as local officials, they 
know the numbers in their area better than any Washington 
statistician.
    But the issue is not just numbers. The issue is trust. 
Every one of the more than 39,000 local governments in the 
country should be able to trust the census to deliver good 
numbers to get the services they need to the people that need 
them. That's a lot of trust. And as a former mayor, I can tell 
you I can trust the Federal Government as long as I can verify.
    Post-census local review offers the best chance for 
verification. I recently attended the U.S. Conference of 
Mayors, meeting here in Washington. I sat on a panel with 
Chairman Miller, Representative Maloney and Commerce Under 
Secretary Robert Shapiro to discuss the census. I believe the 
best comment of the day came not from the panel, but from 
Detroit Mayor Dennis Archer who was in the audience. Very 
simply, he said, ``We as cities need to have the opportunity 
before the census count is in cement to say here is where you 
are wrong, and here are the changes we would like for you to 
consider. I think we ought to be given that time.''
    I think Mayor Archer is right. He is not asking for much. 
If the Census Bureau is asking for the trust of every local 
government in the country, it is not too much for those 
governments to ask for a modicum of verification in return. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Blackwell follows:]

    [GRAPHIC] [TIFF OMITTED]60286.033
    
    [GRAPHIC] [TIFF OMITTED]60286.034
    
    [GRAPHIC] [TIFF OMITTED]60286.035
    
    Mr. Miller. Thank you, Mr. Blackwell, and thank you for all 
the work you're doing on the Monitoring Board. As co-chairman, 
I've had a chance to meet with you on several occasions, and 
it's tough work as we're all involved in making sure we get the 
very, very best census we can for the year 2000.
    Now, we're pleased to have the mayor of the city of 
Richmond with us, and thank you very much for waiting this long 
and thank you for coming up from Richmond today. Mayor Kaine.
    Mayor Kaine. Chairman Miller, thank you very much, and 
thanks to the members of the committee for inviting me today. 
I'm the mayor of Richmond, VA, and I'm offering my comments on 
behalf of my citizens and also in accord with the position of 
the U.S. Conference of Mayors of which I am proud to be a 
member.
    I will summarize the written comments to make it quicker 
and to the point. Because I do make comments on behalf of the 
Conference of Mayors, I would like to tender for the record a 
survey of the United States concerning the physical undercount 
issue that Secretary Blackwell testified about in reference, 
and I would offer that into the record.
    As mayor of the city of Richmond, the best place to start 
is Richmond's 1990 experience. That's where I started as I 
began to look at this issue as mayor, and as I was asked to 
come and testify. In 1990, the city of Richmond had two 
problems in the completion of the census insofar as it affects 
our city.
    The first was discrepancies in the location of housing 
units or failure to identify certain housing units. And then 
the second issue, which was more significant in importance to 
us, was a serious undercount of people, particularly in poor 
and minority neighborhoods. That undercount of people is the 
most serious problem that's faced Richmond and that's faced 
cities across the country, and I will talk about both of these 
problems.
    Now in 1990, when we experienced these difficulties, 
Richmond did participate through the Census Bureau in post-
census review to try to come to grips with these discrepancies. 
That post-census review that we were able to do in 1990 had a 
very minor impact, minimal impact on correcting the housing 
unit discrepancies. Any correction is obviously good, but the 
impact of that correction was de minimis.
    We really viewed that the post-census review process in 
1990, however, had virtually no effect on the significant 
undercounting of people in poor and minority neighborhoods 
which is of great concern to us. In order to really work on 
these two problems, I know the Census Bureau has tried to 
figure, with the guidance of Congress, ways to really address 
them. And the LUCA Program, the local updated census addresses 
program that the Census Bureau is working on, is something 
that's embraced by the city of Richmond, and it is something 
that we are finding helpful. That ability, as you know, to 
coordinate the various address lists that the city has with 
those that the Census Bureau maintains is something that in 
Richmond is working well so far. There's more to go, obviously.
    But, we believe that particular focus will dramatically 
reduce the housing unit discrepancies by requiring more of a 
focus on the front end than the back end. The successful 
implementation of that LUCA process suggests to me, at least in 
Richmond, and Richmond is not, you know, like every other 
community, but in Richmond, the successful implementation of 
LUCA suggests that the post-census review will probably 
continue to be of only marginal benefit. Participating at the 
front end is the way we should go rather than participating at 
the back end.
    There will be benefit, marginal, though, we think, because 
the LUCA process will flesh out these problems in advance. Our 
concern about post-census review is basically that it does not 
address the issue that we think is the most significant and the 
one that led me to write the Census Monitoring Board in 
October, and that is the issue of undercount of poor and 
minority citizens.
    This is the key issue for cities like Richmond and cities 
elsewhere. Making marginal improvements after the fact is 
something I can't be against. I'm the mayor. I want to look at 
the numbers. That would be fantastic. But we need more than 
marginal improvements. And the tremendous undercount of poor 
and minorities, we do not believe will be affected by post-
census review in 2000, just as it wasn't in 1990.
    The only way to address that issue is for the Bureau to 
have that freedom to use every best scientific method that they 
can, including the sampling method that's, I know, 
controversial here, but that we believe is required by law of 
the 13 U.S.C. Section 195 on the census to take the enumeration 
and use those best scientific methods to come up with the most 
accurate count possible.
    So, I'm privileged to have the opportunity to come speak to 
you today. That has been our experience with post-census 
review. We think that the effects of it for us would be 
marginal at best in 2000. But we look and really need a 
solution to the undercount problem that so drastically affects 
our city. Thank you.
    [The prepared statement of Mayor Kaine follows:]

    [GRAPHIC] [TIFF OMITTED]60286.036
    
    [GRAPHIC] [TIFF OMITTED]60286.037
    
    [GRAPHIC] [TIFF OMITTED]60286.038
    
    [GRAPHIC] [TIFF OMITTED]60286.039
    
    [GRAPHIC] [TIFF OMITTED]60286.040
    
    [GRAPHIC] [TIFF OMITTED]60286.041
    
    Mr. Miller. Commissioner Roberts, thank you for coming up 
today.
    Ms. Roberts. Thank you so much. And I do want to thank 
Representative Foley for his introduction.
    On behalf of the Board of County Commissioners of Palm 
Beach County, FL, I want to thank all of you for the 
opportunity to appear before this subcommittee and to voice our 
support for the reinstatement of the post-census review. In 
1980, I served as the Census Field Operation Supervisor for 
Palm Beach, Martin and part of Broward County, an area that had 
then over 700,000, today well over a million people.
    By involvement in 1980, I became aware of the problems 
facing the census in achieving an accurate count. As a former 
city and now county commissioner, I saw the undercounted 
population as a serious issue with many local governments.
    The census count serves as a base for revenue sharing for 
local governments. A significant undercount in the year 2000 
can cost a local government millions of dollars in lost 
revenues required to provide needed services of their growing 
communities. This is an impact that's not felt just in a single 
year, but for an entire decade.
    The population count is directly used to apportion seats in 
the House of Representatives, to distribute Federal funds and 
set policies. In addition, businesses and other groups depend 
heavily on the demographics derived from the census data for 
market information.
    Palm Beach County and its cities--37 cities--have been 
working with the Census Bureau in preparation for the year 2000 
census. We're concerned that, despite the Census Bureau and our 
best efforts, thousands of residents may not be counted in the 
census next year.
    In 1990, a post-census review allowed local governments to 
identify potential undercounts before the census was finalized 
and made official. This review has been eliminated, as you 
know, for the 2000 census.
    In 1990, many cities within Palm Beach County experienced a 
significant undercount. It was estimated that at a minimum, 
23,000 residents of our county were missed in the 1990 count. A 
post-census review enabled some communities to challenge that 
preliminary count. As a result of revised counts, Palm Beach 
County's reported population was increased.
    The city of West Palm Beach, for instance, identified a 
384-unit apartment complex that had been missed in both the 
initial census mailing and in the followup by enumerators. The 
city of Belle Glade, a community of 16,000 people, identified 
168 housing units missing from the preliminary counts.
    The city of Green Acres, which had anticipated a count 
close to 28,000 people, was surprised to be counted at only 
18,000 people. During the post-census review, Green Acres 
questioned the census finding that 25 percent of its 
residential units were vacant. The city subsequently found an 
entire development of almost 500 homes missing from the census 
numbers.
    I could give you many more examples. Census officials noted 
at the time that common problems included people being missed 
in high-growth western area of our county. To underscore the 
potential for miscounts, please note that five communities in 
Palm Beach County elected to undertake a special census to 
correct undercounts in the 1990 census. Based on the ability to 
have a post-census review, four of the cities' recounts 
resulted in a population increase of up to 17 percent.
    In counties such as Palm Beach where the rate of growth is 
more than 20,000 people annually, the post-census review 
provides local governments with their best opportunity to 
correct miscounts and ensure that as a county, and as well as a 
Nation, we obtain the most accurate census possible. An 
accurate census will ensure proper government representation 
and fair allocation of Federal grant money, as well as useful 
data for businesses and other organizations.
    We are a rapidly growing community within the 
unincorporated portion of our county. Almost 500 homes are 
built each month. As we speak here today, another 20 homes will 
be completed and ready for occupancy. These homes, as well as 
an additional 7,000, may be completed before April 2000. They 
may not find their way into the census address list.
    These units may well be missed during the regular census. 
Only with post-census review will these communities have the 
ability to identify these and other discrepancies that could 
affect them in the years to come.
    From the local government perspective, the post-census 
review provides an opportunity to ensure all developments are 
counted and that the population count is as accurate as 
possible. County and city governments look forward to 
continuing our work with the census on the pre-census 
activities to get the best count possible. We believe we need 
to be given the opportunity to have a post-census review in 
order to ensure the most accurate results before finalization 
of the 2000 census.
    Thank you again for the opportunity to be here, and I'll be 
happy to answer any questions.
    [The prepared statement of Ms. Roberts follows:]

    [GRAPHIC] [TIFF OMITTED]60286.042
    
    [GRAPHIC] [TIFF OMITTED]60286.043
    
    [GRAPHIC] [TIFF OMITTED]60286.044
    
    [GRAPHIC] [TIFF OMITTED]60286.045
    
    [GRAPHIC] [TIFF OMITTED]60286.046
    
    [GRAPHIC] [TIFF OMITTED]60286.047
    
    [GRAPHIC] [TIFF OMITTED]60286.048
    
    [GRAPHIC] [TIFF OMITTED]60286.049
    
    Mr. Miller. Thank you very much for all three of your fine 
statements. H.R. 472 is just about census local review. By 
itself, it doesn't cure all the problems. It is one item in my 
proposal of a variety of things, more enumerators, 100,000 more 
enumerators, $300 million more in paid advertising, partnership 
programs to work with communities to get people to participate 
and trust the census. And, this really is a final quality 
check. It goes back to what Mr. Blackwell was saying. It is a 
trust issue.
    Let me clarify, Mayor Kaine. You're not opposed to this?
    Mayor Kaine. Let me say that the idea of being able to 
touch the numbers myself as mayor of Richmond is something that 
I would like to do. So, in that sense, I think the idea of 
being able to review the numbers after the census does make a 
lot of sense. But, I have three concerns--three caveats.
    The first one is that I'm at very much of a disadvantage 
with members of the committee because I know you have the 
expertise in this area, and I do not. When I hear that the 
Bureau of the Census is opposed to this and I don't have the 
chance to hear them describe why they're opposed, I get very 
humble about the weight of my own opinion. And I would, you 
know, sort of be interested in their point on this.
    The second caveat that I would have is if the post-census 
process at all interferes or diverts timing and resources from 
front end to back end. I think that could be a problem, and you 
need to make sure that does not happen because it's better to 
work hard not to make mistakes than to provide resources to 
correct mistakes. So, the focus should be the elimination of 
mistakes.
    And then the third caveat that I would have, which, again, 
I'd like to touch and verify the numbers, is I think, 
Congressman Miller, the lead to your question pointed it out. 
This solves perhaps some problems, but the most acute problem 
that we have in our community, I think, is undercounting in 
poor and minority neighborhoods. We do not think this will 
solve that one.
    To use Secretary Blackwell's example, if a house is put 
across the borderline into one of our bordering counties, this 
would help it, although we think we'll flesh that out with 
LUCA. But, it won't solve the problem of people not accurately 
counting the numbers of people that live in the units that we 
know are in Richmond, and that is the problem that is most 
acute for us that led me to write to the Census Monitoring 
Board.
    So, would I like to verify the numbers? Would I like to 
have my planning staff? Sure, I'd very much like that. But, we 
view it as something that is not right at the core issue that 
we might have that would lead us to have an undercount that 
would affect us in so many areas.
    Mr. Blackwell. Mr. Chairman, let me speak about three 
things that I've heard today and what the mayor just said. I 
think one of the things that we have to do is to make sure that 
post-census local review is not viewed as having been replaced 
adequately by LUCA in 2000. In theory or in practice, LUCA is 
not a sufficient replacement for post-census local review.
    LUCA is designed to build the address list. It replaces the 
pre-census local review that was conducted in January and 
February 1990. Post-census local review is the final quality 
check of the actual census counts. The time for post-census 
local review could be extended, and more effort should be 
devoted to promote the program, as has been done for pre-census 
local review, which is now LUCA.
    Point No. 2. You know, there's been a lot of talk this 
morning about the low participation rate of governments and 
post-census local review in 1990. Participation in pre-census 
local review during 1990 was only 16 percent. It has nearly 
tripled to LUCA's participation rate of 46 percent.
    But my guess is that even if the Bureau doesn't choose to 
make improvements to the post-census local review process, 
those governments participating in LUCA will participate in 
post-census local review, if only to make sure that the 
corrections they made during LUCA were included in the census.
    Finally, a point that has been made this morning is that 
LUCA offers 3 months or more to participate when post-census 
local review offered only 15 days. If local governments didn't 
have enough time in 3 weeks, give them 6 weeks. LUCA is an 
excellent program, but it does not replace, I underscore again, 
post-census local review. It expands on pre-census local 
review, and I think that what we can do is to make sure that we 
give post-census local review the same sort of attention and 
resources to make it better as we've given to pre-census review 
in the name of LUCA.
    Mr. Miller. Thank you. Ms. Roberts.
    Ms. Roberts. Yes. Post-census review is obviously not the 
mecca or the answer to everything any more than LUCA is. But 
just to give you an example, the city of West Palm Beach after 
the last post-census review, there were 180 people that were 
added to the population. The city itself, not being satisfied 
with that, later pursued a special census at the cost of 
$350,000, and they found an additional 7,700 people. So, with 
the post-census review, they still went ahead and did an 
additional census.
    The city of South Bay, which is a little tiny city of 3,558 
people in the 1990 census, went ahead at the cost of $20,800, 
which is a lot of money to a little farming community, and 
increased their census count by 17 percent by doing a special 
census.
    So, post-census review allows local governments to have the 
input to be able to look to see exactly where something is 
lacking. And, if they're still not satisfied as a number of the 
communities in my area are, they can go forward and prove the 
additional people. But, it is important to have that.
    Mr. Miller. Thank you. Mr. Souder.
    Mr. Souder. So I understand what you were saying, Ms. 
Roberts, you're saying that even though you're hoping LUCA 
works well, and even though you're confident that everybody's 
trying to work with you, and that it's going to cost some 
money, you would still like to have that review.
    Ms. Roberts. Yes, we're a growing community. We are growing 
so rapidly that we are going to miss even in LUCA some of the 
units that are being built toward the end--right before the 
census starts.
    Mr. Souder. In your opinion, why would any elected official 
oppose it?
    Ms. Roberts. I'm not sure why. I have one sitting next to 
me. I don't know how fast Richmond's growing, but I know Palm 
Beach County. And, I can tell you that my own experience is 
having hired 700 local people because I was a field operation 
supervisor in the 1980 census. We went out in 1979. We counted 
units. We did much of what Under Secretary Blackwell talked 
about and what Congressman Petri talked about--having local 
people involved.
    We still had missed units. Some of them are funny stories. 
Nobody wanted to go count the local nudist colony. It was very 
hard to find somebody who wanted to go out and count the nudist 
colony. Yet, there were people who went there. I had three 
different people go out and walk back and say they weren't 
going in there.
    Yet, we found that when we counted units, Palm Beach County 
was growing rapidly in the 1980 census. We were still off. When 
you grow at 20,000 units a year, you're going to miss 
something. We're going to miss something in LUCA, and we 
believe it's important to be able to have that post-census 
review in order to find where we've missed those units.
    Mr. Souder. And Mayor Kaine, I think you've made your 
position clear. Tell me if I've mischaracterized.
    Mayor Kaine. Yes.
    Mr. Souder. You don't oppose the review.
    Mayor Kaine. I'm sorry.
    Mr. Souder. You don't oppose the review.
    Mayor Kaine. No.
    Mr. Souder. You said the Census Bureau opposes it.
    Mayor Kaine. Indeed.
    Mr. Souder. But you don't oppose it, and you just don't 
feel it's the preeminent issue. Now, let me ask you another 
question.
    Mayor Kaine. Yes, and that's accurate. It doesn't speak to 
our condition. It may speak to other conditions. It doesn't 
speak to ours and of other cities like ours.
    Mr. Souder. And you said at the beginning of your testimony 
you represented the U.S. Conference of Mayors.
    Mayor Kaine. Correct.
    Mr. Souder. Is their official position that they also 
support the review?
    Mayor Kaine. They have not taken a position for or against.
    They have not taken a position for or against this bill.
    Mr. Souder. So are they for or against this bill or for or 
against post-census review?
    Mayor Kaine. They have not taken a position on this bill.
    Mr. Souder. Are they on record as for census review in the 
past?
    Mayor Kaine. Well, as an example----
    Mr. Souder. A bill becomes a political dynamic in 
Washington.
    Mayor Kaine. Indeed.
    Mr. Souder. I was asking about the principle.
    Mayor Kaine. Yes, indeed. There was a good bit of 
discussion about this at the U.S. Conference of Mayors meeting 
that we had 2 weeks ago. And I also heard Mayor Archer speak 
about how it had helped Detroit in 1990, and that it might be 
something that would be helpful again.
    But, he was also very adamant that something like the post-
census review is part of a package. Accuracy and measures like 
statistical sampling and other scientific methods have to be 
part of that package. And, I don't think he would want to have 
one piece pulled out and said this is what he supports and 
nothing else.
    So, I think the Conference of Mayors supports a package of 
things that would lead to the most accurate survey, but they 
have not taken a position on this bill. They certainly haven't 
said we oppose post-census review. They've not taken that 
strong a position.
    Mr. Souder. I think that would be a politically untenable 
position for the mayors who may not have been at the national 
meeting to think that their national association was saying 
that they shouldn't have the right to review their counts.
    Mayor Kaine. Right. And that's why I made my point that I 
do not oppose it.
    Mr. Souder. I'd be very careful where you're headed here 
because you're plunging into a politically controversial 
question of should we count real people versus statistical 
guesses at real people and then saying as part of that we don't 
want a review.
    Now, you want a review regardless. We have to sort out the 
sampling part here.
    Mayor Kaine. Sure.
    Mr. Souder. As a mayor, I can't imagine that you don't want 
to have a review. Secretary Blackwell.
    Mr. Blackwell. In reviewing the resolutions and the 
discussions of the U.S. Conference of Mayors, I think it is 
fair to say that, in principle, they favor post-census local 
review as a last quality control check.
    Do they want more? Do they want more tools at their 
disposal? The answer, as the mayors indicated, is yes. But, did 
they debate this specific piece of legislation? No, they 
didn't.
    But, you know, this also gives me, Congressman, an 
opportunity to say that, you know, I can respect the Bureau's 
resistance to what they might perceive as undue political 
influence. I really do think it is important to keep in mind 
that post-census local review is not about Congress or the 
Commerce Department fighting for the last word on the census.
    Post-census local review is about local governments having 
a say and a quality control check in the process at the front 
end and at the back end. And since local governments serve and 
represent the people that pay for the census in every sense, I 
don't think it's too much to ask that they have some say in the 
outcome and the final numbers.
    Mr. Souder. Mr. Chairman, if I could make a brief comment 
because my home-base city where I live was alluded to in Mr. 
Blackwell's testimony. I am very concerned that, for political 
reasons, we have focused so much attention and the 
administration has focused so much attention on trying to 
promote sampling that they haven't been doing the basic things 
that need to be done.
    I get complaints in my congressional office about how the 
Census Bureau in my home town isn't getting what they need. And 
then I hear people come in to Washington and go on national TV 
and talk about how they're worried about an undercount.
    Well, yes, there's going to be an undercount if they don't 
have the maps, if they don't get the people hired, and if they 
don't know where their city lines are if the Census Bureau 
can't get the information.
    A lot of whining at the end that we don't have an accurate 
count is not justified because some people wanted to sit down 
at some computer and figure out some mathematical vision of how 
many people were in a place.
    Step No. 1 is get your job done and get the information out 
there. Then, work with the mayors and the other county 
officials to make sure that gets done. Then, do a post-census 
review. We need to work and make sure. This Congress has 
committed that we'll spend the money.
    And, what we need are plans out of the U.S. Conference of 
Mayors to say, look, we're very worried. We have mobile 
immigrants who don't want to be counted. We have homeless that 
don't want to be counted. We have people who for a variety of 
reasons don't want to be counted. We need proposals as to how 
to count them because ultimately in the courts, the American 
people aren't going to count fictitious people. Now it hits my 
home town, they didn't have the basics.
    So, why are we here in Washington arguing about how we're 
going to do it if they aren't even implementing the basic 
fundamental count. Anything else is just a supplemental. I'm 
sorry I got aggravated. But all of a sudden, it hits pretty 
much home. In the theoretical, what we've been fighting about 
in Washington is my home town. Hopefully, it will at least 
count my family.
    Mayor Kaine. I took that comment as somewhat responsive to 
some of the things I was saying.
    Mr. Souder. It was not. [Laughter.]
    Mayor Kaine. Sure. I agree with you. And the idea is to get 
outraged and do as much as we can upfront because I think 
whatever we might debate about methods--and I'm not savvy 
enough about this to debate method with anybody on this 
committee, the mayors want the best methods upfront.
    I want to verify it later. This undercount problem which is 
a particular one--you mentioned the homeless and people in poor 
and minority neighborhoods. That's the one we have. That's the 
one you have in your community.
    We really think that there are ways upfront to deal with 
that, and that is our primary interest.
    Ms. Roberts. Representative--sorry. In Florida, and 
Representative Miller knows this, we're not only incorporated, 
but we're unincorporated. And Palm Beach County has about 50 
percent of its population where I am. Literally, Palm Beach 
County's government is the only government.
    So, we in effect have the same problems that the cities 
have. We want to be sure that everybody gets counted. Palm 
Beach County, much to many people's surprise, is the largest 
agricultural county in the State of Florida and the fourth 
largest in the Nation.
    We have illegal immigrants. We have homeless. We have 
migrants, as well as what our name suggests. So, the problems 
that we have are the same as any large city. This is a county 
of well over a million people.
    We have the enormous growth, as well as homeless, as well 
as migrants, as well as a lot of illegals who really don't want 
to be counted. So it is important to us to have post-census 
review. But we know it's not the only answer. Counties in 
Florida as counties in many places in the United States have 
the same problems. They're not all cities.
    Mr. Miller. The Supreme Court essentially settled the 
argument about sampling. So, we keep rehashing something that 
is illegal. It doesn't really get us to our goal, which is to 
get everybody counted. And, this is just one component of the 
whole thing.
    Let me ask one final question, if I may, Ms. Roberts. What 
is Palm Beach County doing as far as support and resources, and 
how is it structured within county government or city 
government as far as providing the Census Bureau to get the 
best number possible?
    Ms. Roberts. Palm Beach County assigned someone in the 
county specifically to the census. We also have 38 cities. We 
have the unique county in Florida. We have more cities than any 
other county in the State. So, our larger cities are also 
cooperating because they have the resources to do it.
    We have many smaller cities. I named South Bay for one, 
which has 4,000 people, and it's a farming community. A lot of 
our smaller cities don't have the resources. And, the county is 
attempting to help them with LUCA. But we're working with the 
Census Bureau in cities like West Palm, Boca Raton, Boyton 
Beach, Delray Beach. They're all larger cities, and they have 
the resources to also work with the Census Bureau.
    Mr. Miller. I think most of your colleagues, the mayors and 
the commissioners, recognize the critical importance to do 
everything they can to make sure the census gives us the best 
number possible.
    Ms. Roberts. It means dollars to us.
    Mr. Miller. Right.
    Ms. Roberts. So, I can assure you that we're putting all 
our resources that are available.
    Mayor Kaine. We all have that interest.
    Mr. Miller. Well, remember, Ms. Roberts, you come from an 
interesting perspective having worked for the Census Bureau 
back in the 1980's.
    Well, let me thank all three of you all for being with us 
today. We appreciate your testimony, and we all agree on the 
final goal. And, we just need to keep working step by step to 
make sure we get there. Thank you very much.
    Mayor Kaine. Thank you, Mr. Chairman.
    Ms. Roberts. Thank you so much, Mr. Chairman.
    Mr. Miller. We'll move now to the next panel, Mr. 
Boatwright and Ms. Welty. If you all would just remain standing 
so I can swear you in as witnesses, please. Raise your right 
hands.
    [Witnesses sworn.]
    Mr. Miller. Welcome. I'm sorry. You know, these things go 
on and on. We're lucky. Fortunately, we haven't had any votes 
yet today, and so we have not been called away. But let us 
continue with your opening statement. I appreciate both of you 
being here, and we'll go with Mr. Boatwright first.

     STATEMENTS OF LANIER BOATWRIGHT, PRESIDENT, NATIONAL 
ASSOCIATION OF DEVELOPMENTAL ORGANIZATIONS; AND BARBARA WELTY, 
   BOARD MEMBER, NATIONAL ASSOCIATION OF TOWNS AND TOWNSHIPS

    Mr. Boatwright. Thank you, Mr. Chairman, and members of the 
subcommittee for the opportunity to testify today on the need 
to reinstate the post-census local review for the 2000 census.
    My name is Lanier Boatwright, and I'm the executive 
director of the McIntosh Trail Reasonable Development Center in 
Griffin, GA. I'm also president of the National Association of 
Development Organizations. Accompanying me today is the city 
manager of Barnesville, GA, Kenneth Roberts, who was involved 
in the post-census review after the 1990 census.
    The National Association of Development Organizations or 
NATO is a national public interest group founded in 1967 to 
help economic development professionals and local elected 
officials share information and ideas. The Association is the 
leading advocate for reasonable approach to economic and 
community development in America's small metropolitan and rural 
communities. We're also a part of the Census Bureau's 
Partnership Program.
    Our general members of the service delivery mechanism for a 
variety of State and Federal programs provide a wide range of 
technical assistance to local governments. All of these 
organizations were established by State law or Executive order 
and have strong relationships with their local elected 
officials and governments.
    The McIntosh Trail Reasonable Development Center serves 
127,000 residents in the Middle Georgia region, which includes 
Butts, Lamar, Pike, Spalding and Upson Counties, and 16 cities 
and towns with populations from 138 to 21,500. Our primary 
mission is to offer community and regional planning, economic 
development, mapping services and other requested services to 
local governments and municipal governments.
    We also act as an interface between local, regional and 
State agencies for planning and public information initiatives 
like the U.S. Census. In preparation for the 2000 census 
through an appropriation from the Georgia Legislature, the 
Georgia Department of Community Affairs has contracted with 
Georgia's 16 regional development centers, which includes the 
McIntosh Trail RDC to provide technical assistance to local 
governments for the local update of Census addressing program. 
As a State with a 2.124 percent undercount in 1990, we 
certainly understand the importance of obtaining an accurate 
count.
    Mr. Chairman, I'm here today to discuss three main issues 
why the Census Bureau should reinstate post-census local review 
for the decennial census. First, Mr. Chairman, the pre-census 
activities such as the LUCA Program are inadequate substitutes 
for the post-census local review.
    While we completely support and embrace these programs, we 
also recognize that only approximately 18,000 of the Nation's 
39,000 units of local government are actively working with the 
Census Bureau to update the master address file.
    In addition, only 32 of the 62 local governments actually 
participated in the LUCA Program's process during the target 
address rehearsal in Columbia, SC, and that was according to 
reports from the General Accounting Office and the Presidential 
Members of the U.S. Census Monitoring Board.
    That's why NATO has been urging the Census Bureau to work 
through the network of the 320 regional development 
organizations, to help rural local governments participate in 
the LUCA process. Despite understanding the importance of the 
census, the bottom line remains that the vast majority of local 
governments do not have the staff or financial resources 
necessary to fully participate in pre-census activities such as 
LUCA.
    As we found in 1990, many local governments believe there 
were undercounts in the area but couldn't even afford an 
appeal. Second, Mr. Chairman, local governments should have an 
opportunity to ensure the accuracy of the census numbers before 
they're final.
    There are too many consequences from inaccurate counts. 
Besides the well known outcome such as a loss of a 
congressional seat or in Federal aid, many small to medium-
sized communities have encountered other problems. In 1990, a 
small city in Alabama successfully challenged its count and had 
it adjusted from 1,880 to 2,281 people. However, another small 
Alabama city informed the Census Bureau that it was improperly 
counted, but ultimately it was never corrected.
    These two cases are significant because in Alabama a 
municipality is designated a city only when it has 2,000 or 
more people. Unfortunately, the city that remained incorrect 
had to change its name and lost all the revenues it would ever 
see with an accurate count or under 2,000.
    There are many other examples across the country, including 
in Pennsylvania where the North Central Pennsylvania Regional 
Planning and Development Commission helped a small community 
actually appeal an overcount. If the census numbers had been 
accepted, the town would have been ineligible for their rural 
development programs.
    When one of the towns in my region, Barnesville, which has 
a population of 4,747, tried to appeal in 1990, they were 
discouraged by the Census Bureau. In 1996, when the estimates 
were released by the Census Bureau, it was reported they had 
actually lost 100 people. Because the city provides 
electricity, water, sewer, gas through its own utility, it 
knows exactly how many residents it has.
    It also has a state-of-the-art geographic information 
system with exact addresses by census tracts. The city appealed 
the 1996 estimate and provided the agency with maps but never 
received a response.
    As you can see from these examples, these issues of an 
accurate count are not only in urban areas and large suburbs, 
but also in America's small towns and cities and counties. 
Regardless of the outcome of the debate, our main concern is 
that we achieve an accurate count at both the national and 
local level.
    And third, Mr. Chairman, local governments can't afford 
inaccurate counts for their areas. This census has long lasting 
implications at the local level. Over billions of dollars in 
Federal aid to State and local governments are in jeopardy, and 
literally hundreds of thousands of dollars for individual 
communities.
    With almost a $3 billion budget, we strongly believe that 
the Census Bureau should have provided some financial 
assistance to help local government. While the time restraints 
for preparing the 2000 census may prohibit such a program, the 
Census Bureau should help communities with a sound case 
participate in opposed census review processes.
    Several large cities also have announced they plan to 
challenge the 2000 count, and these are communities who have 
already participated in LUCA and yet still value the importance 
of an appeal process.
    We believe all local governments should have a fair chance. 
In closing, Mr. Chairman, those three main points were, first, 
the pre-census activity, such as the local updated census 
addresses program, is not adequate as substitutes for the post-
census local review.
    Second, local governments should have an opportunity to 
ensure the accuracy of the census numbers before they're final. 
And third, local governments cannot afford inaccurate counts 
for their areas.
    Thank you again for the opportunity to testify today on 
behalf of the National Association of Development 
Organizations, and I would be happy to answer any questions.
    [The prepared statement of Mr. Boatwright follows:]

    [GRAPHIC] [TIFF OMITTED]60286.050
    
    [GRAPHIC] [TIFF OMITTED]60286.051
    
    [GRAPHIC] [TIFF OMITTED]60286.052
    
    [GRAPHIC] [TIFF OMITTED]60286.053
    
    [GRAPHIC] [TIFF OMITTED]60286.054
    
    Mr. Miller. Thank you, Mr. Boatwright.
    We do have a vote, but we have enough time for Ms. Welty to 
make her presentation, please. Welcome, again.
    Ms. Welty. Good afternoon, Mr. Chairman, and members of the 
subcommittee. Thank you for this opportunity to appear before 
the subcommittee on the census in support of Chairman Miller's 
bill, H.R. 472.
    Before I go into detail about why a 45-day post-census 
review is essential to ensure a fair and accurate count for 
local communities, allow me to introduce myself and tell you a 
little bit about who I represent.
    My name is Barbara Welty, and I am a board member of the 
National Associations of Towns and Townships [NATAT]. I am also 
the elected clerk of Catheo Township in Mille Lacs County, MN 
and a member of the Census 2000 Advisory Committee.
    NATAT represents approximately 11,000 towns and townships. 
Most of these are small and tend to be rural. There are 39,000 
general purpose local governments throughout the country of 
which we represent approximately one quarter, 82 percent of 
which have a population of 50,000 people or less. Nearly half 
of all local government have fewer than 1,000 residents. Almost 
one-third of all local governments have no paid full-time staff 
and rely mostly on volunteers or part-time workers to fulfill 
the needs of their citizens. And, this is especially true for 
townships.
    The decennial census process must include local governments 
at all stages. The process must take into account limited 
staffing and resource capabilities of many local governments, 
as well as their hands-on knowledge about their community.
    The purpose of this testimony is to highlight the special 
needs of smaller communities and to reiterate the importance of 
a 45-day post-census review as described in Chairman Miller's 
bill, H.R. 472.
    In 1990, part of the problem in reaching small communities 
began with the pre-census local review. Only 21,000, or 
slightly more than half of all local governments, were eligible 
to participate. And according to GAO, less than half of those 
eligible actually took part.
    For the 2000 census, the Bureau instituted a new program 
referred to as LUCA, local update of census addresses. LUCA has 
replaced the pre-census local review of 1990, and this is 
intended to give local governments the same opportunity to 
correct potential miscounts by providing them with the Bureau's 
address list and maps of the area before the actual census.
    We support the LUCA process. However, despite the Bureau's 
efforts and, indeed, the efforts of organizations such as ours, 
there are only 78,105 local governments now participating in 
the LUCA process to date. This leaves 21,895 local governments 
without pre-census involvement.
    There are a variety of reasons why localities may not be 
participating in the LUCA process, and I mentioned some of them 
in my written testimony. The bottom line is that the majority 
of local governments are not participating in the LUCA process 
often because of inherent special needs of smaller communities 
and the lack of Federal funding to help communities 
participate.
    It is the obligation of Congress and the Bureau to ensure 
that these special needs are addressed. In my written 
testimony, I refer to a survey we conducted after the 1990 
census. A reoccurring complaint from survey respondents was 
that the 15 days allotted for the post-census local review was 
not enough time to adequately complete an analysis.
    Today, more than one-half of all local governments are 
still not participating in any form of pre-census review and, 
therefore, need the benefit of a post-census review. Testimony 
by the General Accounting Office in September 1990 supports our 
assertion that small communities are at a disadvantage in the 
census process.
    GAO identified two reasons smaller communities did not plan 
to participate in the post-census review. No. 1, a lack of 
funds, expertise or other resources to carry out the program. 
No. 2, a lack of housing unit data of their own at the block 
level required to challenge the Bureau counts. This was 
especially true of small populations with communities and 
populations of less than 12,500. The GAO findings contradict an 
earlier Bureau assertion that non-participation in post-census 
local review is an indication of acceptance of the preliminary 
count.
    Local communities often want to participate, but they do 
not have the resources to do so effectively. The onus lies on 
the Bureau and Congress to ensure that smaller communities have 
the opportunity and the necessary tools to participate fully in 
the census process.
    Given the limited revenues and human resources, it is only 
fair that they be given a reasonable amount of time to prepare 
their challenges. Because most local governments are not 
participating in a pre-census review like LUCA, eliminating the 
post-census local review gives them no opportunity to challenge 
the Bureau's data. Even if a locality cannot wade through the 
data received during the LUCA process, it should not be denied 
the opportunity to at least review the results.
    In a locality that for whatever reason never heard of LUCA, 
the process should not be penalized by not having any input 
into the accuracy of the data for its jurisdiction. Completing 
the census is an extremely difficult undertaking. We appreciate 
the magnitude of this job. A 45-day post-census review, as 
proposed in H.R. 472, is one way, but only one way, to help 
ensure that our smaller communities are more accurately 
accounted for. We need and want an accurate census. Thank you 
for this opportunity to present my testimony.
    [The prepared statement of Ms. Welty follows:]

    [GRAPHIC] [TIFF OMITTED]60286.055
    
    [GRAPHIC] [TIFF OMITTED]60286.056
    
    [GRAPHIC] [TIFF OMITTED]60286.057
    
    [GRAPHIC] [TIFF OMITTED]60286.058
    
    [GRAPHIC] [TIFF OMITTED]60286.059
    
    [GRAPHIC] [TIFF OMITTED]60286.060
    
    [GRAPHIC] [TIFF OMITTED]60286.061
    
    [GRAPHIC] [TIFF OMITTED]60286.062
    
    [GRAPHIC] [TIFF OMITTED]60286.063
    
    Mr. Miller. Thank you both for your final testimony. I 
thank you all for submitting your testimony early enough.
    We do have a vote. I think it's going to be two votes. So, 
it's probably the amendment and final passage.
    So, we'll take a recess. If you all can stay, we'd like to 
ask a few minutes for questions when we come back, and then 
we'll go to the final panel. If I had to guess right now, we're 
talking about 20 minutes or so by the time we get back. So 
we'll take a recess.
    [Recess.]
    Mr. Miller. Thank you very much, and sorry for the need to 
go vote. Actually, we were very fortunate that that's the only 
set of votes so far today, and I think we're free for the rest 
of the hearing.
    Let me begin by a couple questions and get some 
clarification. Mr. Boatwright, I just talked to you a minute 
ago. But your development is equivalent--what we have in 
Florida is the regional planning councils.
    Mr. Boatwright. Yes sir. The council's a government in some 
States, planning development districts.
    Mr. Miller. And you're the national president of that 
organization?
    Mr. Boatwright. Yes sir.
    Mr. Miller. One of the concerns, I think, you expressed, 
and just clarify again with me, is that a lot of communities 
have a lot of good information, and the only way they have a 
chance is that they can help right now in the local address. 
How is that going in your sense?
    Mr. Boatwright. In my region, it's going very well. We have 
two tiers. The larger counties go first, and now the next group 
of counties are coming in, and we're finishing up the mapping 
then.
    Mr. Miller. Ms. Welty, are you working? How's it going so 
far in your area?
    Ms. Welty. Up until this point, the LUCA Program has been 
not heeded very well, I guess, with smaller local governments. 
However, I was just at a LUCA training in our general area last 
week, and the original plan for that meeting as I called 3 days 
ahead of time only had 10 members enrolled or registered to 
attend. By the time the meeting progressed, they had over 100.
    Most of them, I must say, also happen to be township 
officials that were there. We had very few cities and very few 
counties. The cities, basically their portion of LUCA should be 
considered completed by now. However, in the same instances 
that happened earlier as mentioned, in Fort Wayne, we had 
several cities at that meeting that still had not gotten their 
LUCA maps from the city addressed LUCA programs.
    Mr. Miller. Well, I think we're all pleased that we have 
the LUCA Program, and we learn every year better ways to 
improve the census, and LUCA is certainly one of the 
improvements we have this time around.
    I'm still baffled why a few of the Bureaus are opposed to 
post-census local review because of the trust issue. It can't 
do any harm. I know it's a pain for some of the people in the 
Bureau. But I can't imagine seeing any harm to it?
    Ms. Welty. Absolutely not. I guess because of my 
involvement with the Census 2000 Advisory Committee, I also do 
a lot of talking about the census to different groups. When I 
first started to inform them that there would be no review 
after, most of the people that were there were aghast at the 
fact that we couldn't check after, that's it. The LUCA process 
is it. And, I had to say at that point, yes.
    So, local officials very much support a review.
    Mr. Boatwright. I also think, of course, part of the 
problem is that local governments will react more strongly 
after they have numbers and information placed in front of them 
so that you'll have a natural reaction when you have numbers.
    So that before the census actually takes place, some may 
not put as much credence in the LUCA process. Again, in 
Georgia, we were lucky because our State went to all the RDCs 
and said help us in this process and gave us a small amount of 
funding to assist. But otherwise, we would have a lot that 
wouldn't participate if we didn't have the regional 
involvement.
    Mr. Miller. Do you know what's happening in other States? 
As far as the State of Georgia says it's giving $50,000 to each 
of the planning districts, development districts. Is the 
Minnesota State Legislature?
    Ms. Welty. No. And that by far is the exception to the 
rule. Most States have not, to my knowledge, been able to help 
any toward resources or have not at this point at least.
    Mr. Miller. Ms. Welty, you're on the Census Advisory Board, 
right?
    Ms. Welty. Yes, I am.
    Mr. Miller. Appointed by the Secretary of Commerce?
    Ms. Welty. Yes.
    Mr. Miller. Has the Census Advisory Board taken a position 
on this issue?
    Ms. Welty. No, we have not. We discussed it, actually, at 
one of our last meetings, and it's a divided issue, the same as 
it is here. But I would say all of the local governments that 
are represented on that committee were all in favor of a post-
census review.
    Mr. Miller. How many communities are you representing, Mr. 
Boatwright, in your district?
    Mr. Boatwright. Oh, I'm 5 counties and 16 cities or towns.
    Mr. Miller. How many of them would you say have relatively 
sophisticated ways to count people?
    Mr. Boatwright. I would say, again, with the city of 
Barnesville, although it's under 5,000 by census numbers, it 
has a very sophisticated geographic information system. The 
county seats of each of our counties are municipal electric 
authority cities that provide that utility. So, they have 
access to information and billing going to customers. I mean, 
if you think they read a meter at every household, you know, 
that's 120 times in 10 years.
    But on the other hand, we think that the smaller 
communities, because we've got a lot of communities that are 
under 300, don't have the staff and personnel to even begin to 
address this issue. Again, that's where the regional 
organization comes in to help.
    If they don't have that, they don't have the personnel to 
respond adequately, we think, to the LUCA process.
    Mr. Miller. And the basic idea is that these communities 
just want to check the numbers. I mean, even a small community, 
I guess, of 300 with a volunteer mayor or something maybe, they 
can at least have that chance.
    Mr. Boatwright. Well, within a small community you know 
everybody. But with the city of Barnesville that's here today, 
in the last 90 days they've taken a photograph of every primary 
structure in their city of over 1,800, and they added that to 
their GIS system. So the local elected officials know who's 
there and have a way to find out, through many different ways.
    Mr. Miller. Thank you. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Had I been here when Mayor Kaine was testifying, I had a 
question that I would have asked of him that related to 
mispopulation. The question would have been that in 1990, 70 
percent of the population missed in the census were in housing 
units that were enumerated. Of course, with blacks, 80 percent 
of the black population missed in 1990 were in housing units 
that were enumerated.
    The question would have been how does the post-census local 
review address this mispopulation. Of course, I was not here 
and did not ask him the question. But the verification of what 
I was looking for is contained in a letter from Mr. Ludington 
from the Brookings Institute. And I would ask unanimous consent 
if I could have that letter entered into the record.
    Mr. Miller. No objections.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]60286.064
    
    Mr. Davis of Illinois. At that time. I have a question of 
Ms. Welty. In your written statement, you say that you 
conducted a random sample of your members to determine the 
overall success of the 1990 census.
    You also say that 52 percent of the respondents were from 
communities with populations greater than 5,000, and that they 
rated the Census Bureau's communication effort as good or 
excellent, while 66 percent of the respondents from communities 
with fewer than 5,000 residents labeled the Bureau's 
communication as being fair to poor.
    So that I can put your numbers in the proper context, could 
you tell me how many of the 11,000 local governmental units 
that you represent were surveyed?
    Ms. Welty. I don't have that actual figure. We actually had 
140 responses out of 32 States. But through the course of the 
last 10 years, the actual amount of surveys that were sent out, 
I cannot tell you that.
    Mr. Davis of Illinois. What you're saying is that the 
responses were probably less than 65 percent.
    Ms. Welty. I would guess yes.
    Mr. Davis of Illinois. If that would be the case, would you 
have any estimation or any guess as to why so few of them 
actually participated?
    Ms. Welty. Basically, it's resources and understanding the 
process. The pre-census in 1990 was very difficult. It was 
geared toward large cities so that the smaller communities of 
which our Association represents were not able to be involved 
in that. And at that point, until a post-census review was 
made, those cities did not--or I shouldn't say cities, but 
those communities did not really heed the census.
    As Mr. Boatwright just mentioned, once they got the final 
count and they realized that they were way under what they 
thought, many of the communities wanted to participate. Many of 
them financially weren't able to challenge or were discouraged 
from challenging because it was a more difficult process than 
what they had capabilities of doing.
    So, many of those people who could have challenged, perhaps 
should have challenged, did not for several reasons.
    Mr. Davis of Illinois. If that is the case, would that not 
support the Bureau's contention that this really is not the 
most effective way to get that kind of information.
    Ms. Welty. No, I don't think so because with the new LUCA 
Program, first of all, there's involvement from the very 
beginning that they have been informed of. However, there are 
people who have still not gotten the proper notification 
because of some problems with mailings and stuff. But now that 
they know that that process is out there and many of them have 
participated, we were saying 50 percent now basically have 
agreed to participate in the LUCA process. They know that it's 
out there.
    Right now, we're trying to encourage. Again, many of our 
members are from small communities that we call in the Census 
department real address systems. So, they are just now getting 
their maps and the involvement of, I am hoping, the involvement 
of townships will get considerably more because of the process 
that's just starting now.
    Mr. Davis of Illinois. And so, even though they didn't 
participate before, you think that they have a different level 
of awareness?
    Ms. Welty. They have a much greater awareness.
    Mr. Davis of Illinois. And what would likely follow up?
    Ms. Welty. Yes, they have a much greater awareness. And 
once that process has begun, they really feel that they want a 
chance to review at the end the final figures. And this, as I 
say, has come back from many of the local officials.
    They feel that as an elected representative from the 
community that they represent, they should have and they must 
have a review at the end, at the final process, before the 
numbers are out.
    Mr. Davis of Illinois. Mr. Boatwright, I understand that 
only 25 percent of all governmental units participated in the 
post-census local review in 1990. Would you be able to tell us 
what percentage of the rural communities that you represent 
participated in 1990.
    Mr. Boatwright. In the post-census?
    Mr. Davis of Illinois. Yes.
    Mr. Boatwright. In my region, I can tell you. And I can 
tell you that approximately 50 percent tried to participate in 
the post-census review. However, in several cases, there was no 
response.
    Again, the city of Barnesville, 4,774 in 1990. The 1994 
estimates came out and showed about 5,400 plus in that 
community. The 1996 estimates came out and showed 4,600. And 
the discrepancies were up and down, you know, since 1990, and 
they provided maps and made an appeal and never heard back.
    So I am very certain of the specific communities in my 
region that have done that. It was about 50 percent.
    Mr. Davis of Illinois. If asked to participate in the local 
review now, what numbers would you project?
    Mr. Boatwright. Well, I would project that if they were 
asked now if they would participate in a review process 
afterwards, 100 percent, because I feel that the local 
governments want to have some say so in the verification.
    We have evidence and it's in my testimony that there are 
cities that are participating in the LUCA Program now that 
still want to participate in a post-census review process.
    Mr. Davis of Illinois. Thank you, Mr. Boatwright.
    Ms. Welty. Mr. Chairman.
    Mr. Miller. Yes.
    Ms. Welty. I'm going to lose my voice yet. I'm sorry. Could 
I just quickly address two things, and one of the things which 
I failed to mention which is probably the most important. 
Increasing the post-census review from 15 days to 45 days is 
ultimately the goal. It must be done 15 days in small 
communities. Sometimes there's nobody at an office for 15 days. 
So they might have received the maps and be sitting in the 
office. But the person that works with them wasn't even there.
    So, that is a very important thing. And regarding the PCLR, 
it failed basically for several reasons. And one of them, 
again, was that the pre-census review was limited and it was 
difficult to participate in which I mentioned.
    Another one is that the period of time of 15 days was just 
too short. And the LUCA process is flawed. Now we know that. 
This post-census review would definitely help us correct that 
at the point that LUCA has fallen down.
    And I do support LUCA. I think that it's the way to go and 
the way to go to the future. I would hope that it would be 
continued beyond 2000, that we can continue that list and 
update it.
    Mr. Miller. Thank you all both very much for coming here 
today. We appreciate your testimony and your statements and 
your responding to the questions. Thank you.
    Mr. Boatwright. Thank you.
    Mr. Miller. And we'll proceed on now to the third panel, 
Dr. Ehrlich, Dr. Bryant and Ms. Heinz is unable to be with us. 
If you all would stay standing.
    [Witnesses sworn.]
    Mr. Miller. Let the record show that they've answered in 
the affirmative, and we'll proceed now to opening statements. 
Dr. Bryant said she wanted to make sure that Dr. Ehrlich goes 
first, and actually he was scheduled to go first. Dr. Ehrlich.

 STATEMENTS OF EVERETT EHRLICH, U.S. CENSUS MONITORING BOARD; 
AND BARBARA BRYANT, NATIONAL QUALITY RESEARCH CENTER, SCHOOL OF 
        BUSINESS ADMINISTRATION, UNIVERSITY OF MICHIGAN

    Mr. Ehrlich. All right, then, although I concede, Dr. 
Bryant, with a certain amount of modesty, he having been the 
one person on earth who has managed the largest field research 
project that our civilization has probably ever seen, and that 
is the 1990 census. And for that reason, I, as you, Mr. 
Chairman, am looking forward to hearing what it is she has to 
say.
    I appreciate the opportunity to be here, even on this very 
short notice, Mr. Chairman. A written statement has been 
provided to you. Let me say a few things in summary.
    I think that we have talked fairly amply this morning about 
the strengths and the weaknesses of the 1990 post-census 
review, of the LUCA Program. I think that even if unorganized, 
many of those facts are there.
    There are several, though, that I think have escaped notice 
and that I'd want to emphasize. One is that half of the success 
of the post-census review in 1990, if we measure success by the 
3 percent of the net or 2 percent of the gross undercount that 
was tracked in that review, came from two places. It came from 
Detroit and Cleveland.
    And, Mr. Chairman, you know as well as I do why those 
places accounted for half of the success. It's because they 
were on the cuff of having less than 1 million people and, 
therefore, qualifying for a different set of programs that 
would have been of important fiscal consequence to them.
    In fact, local census review wasn't an immensely successful 
program. It gave those two municipalities an opportunity to 
preserve resources that they thought were due them. I think 
it's also the case that we heard this morning that one of the 
problems with post-census review is that it's unfair to small 
municipalities, and it generally requires resources.
    I think that in the long term that Congress needs to 
consider reforms such as moving toward standardizing local 
address lists and providing localities with resources that 
would allow them to participate in pre-census reviews, 
boundaries and the master address file and the like.
    But I don't think we want to put ourselves in a situation 
where we give every locality--there are 39,000 of them--a free 
shot at holding up the 2000 decennial. And that, sir, is what 
your legislation risks doing. It does not specify a criteria 
for this review. It simply says that the Secretary will stop 
the music if one of those 39,000 municipalities has a beef, and 
it will investigate that.
    That can't be done. It seems unfair. And if one can 
dissemble about the rights of local communities and talk about 
how they all have to have that right, that won't work. It won't 
work because you, the Congress, have specified a deadline by 
which the census must be done.
    Those of us who are my age and older in this room remember 
the TV show ``Beat The Clock.'' In ``Beat The Clock,'' 
contestants were given a crazy stunt to do and a fixed number 
of seconds in which to do it. The census is playing the most 
compelling game of ``Beat The Clock'' that we've ever seen. The 
Constitution tells them to go out and to account for each of 
the 260 million odd Americans and to do so in a fixed number of 
seconds.
    What you're telling them to do, sir, is to not only do that 
but to do it with one eye closed and one foot off the ground by 
being prepared to stop the music for each of the 39,000 
possible reviews without a predetermination of merit and 
without regard for the fact that, with regard to time, the 
number of seconds involved, we're at risk of putting 10 pounds 
of potatoes into a 5-pound bag.
    I'm concerned that the Census Bureau has not been asked to 
respond to this proposal before this hearing. And I think that 
if they had, we might have exchanged views about what activity 
in the critical path you wish to get rid of in order to create 
the time for this review because nothing, as an economist I can 
tell you this, comes free in life.
    In fact, if we're going to have this review, if we're going 
to expand it to the 45 days I heard about this morning, then 
something has to give. And finally, sir, I think that we have 
reason to be frightened. When the Congress takes upon itself to 
tell the Census Bureau not only what it wants to have happen in 
the way of methodology, ignoring the consensus recommendations 
of the statistical community, but how it wants to happen as 
well, I think that that risks the appearance of the hand of 
meddlesome big government. I know that in your legislative and 
political career, you have been an enemy of that trend in our 
society, and I encourage you to be an enemy of it now and to 
allow that career staff to do the job as they see fit. Thank 
you, sir.
    [The prepared statement of Mr. Ehrlich follows:]

    [GRAPHIC] [TIFF OMITTED]60286.065
    
    [GRAPHIC] [TIFF OMITTED]60286.066
    
    [GRAPHIC] [TIFF OMITTED]60286.067
    
    [GRAPHIC] [TIFF OMITTED]60286.068
    
    Mr. Miller. Thank you.
    Dr Bryant, welcome again. Nice to have you here. Thank you 
for staying all day.
    Ms. Bryant. Well, the reason that Everett had to precede me 
was that I said this shows how you have lost power when you 
once testified first, and now you're the last one on the fourth 
panel.
    I am Barbara Everett Bryant of the University of Michigan 
Business School. I think I'm here today for history. This is 
because I was Director of the Bureau of the Census from 1989 to 
1993. This means I was the Director of the 1990 census, which 
was not the largest census in civilization. China and India 
have more.
    Post-census local review in 1990 was a well-intentioned but 
ineffective operation. And even before the 1990 census was 
completed, there were consensus among those of us with 
operational leadership responsibilities for that census. A 
better way needed to be found to work cooperatively with local 
units of government to improve the Census Bureau's address list 
for the taking of the next census.
    Now, I say the post-census local review was well 
intentioned because cooperative was meant to be the operational 
word. The review was intended to be a joint operation between 
the then 39,198 functioning local government units and the 
Census Board to improve the address list for each locality and 
thus improve coverage and make the 1990 census more complete.
    You've heard from all the previous people about the fact 
that only a quarter of local government participated, that the 
particular operation among a number of coverage improvement 
operations we undertook that post-census local review added 
only 0.08 percent. That's eight one-hundredths of 1 percent to 
the number of housing units that had been counted prior to 
post-census local review. That has been reported in table 1.2 
in the final publication on coverage improvement programs.
    Attached to this testimony, I further show by each State 
that no State that did post-census local review produced more 
than a fraction of 1 percent addition to the housing unit 
count. The Census Bureau recanvassed blocks in which housing 
units were reported missed by the local communities and had 
already recanvassed others in other coverage improvement 
operations.
    Now, post-census local review in 1990 did have a positive 
effect in identifying geo-coding mistakes. That is, housing 
units that had been actually counted in one block but really 
belonged in another block, usually the adjoining one.
    One of the triumphs of the 1990 census was the first use of 
a sophisticated computerized geo-coding and digital mapping 
system known by its acronym, TIGER. Yes, the 1990 census had 
some triumphs as well as errors.
    Even triumphs, however, have problems when first 
introduced. But fortunately, the geo-coding errors corrected as 
a result of post-census local review then. And during the other 
coverage improvement operations and in the years since are now 
permanently incorporated in the TIGER system. And many of the 
errors we've heard previous testifiers testifying about were 
these geo-coding areas.
    Well, rather than repeat the post-census local review with 
its costly, disappointing and minuscule results, the Census 
Bureau determined to find a better way for local government to 
more fully participate in the census. Neither pre-census or 
post-census local review worked effectively in 1990 for one 
major reason, and we've heard about that from Representative 
Sawyer already.
    The Census Bureau at that time was not able to share 
addresses with local government. Long held interpretation of 
the Census law title 13 was that specific addresses were 
confidential. And thus, for checking in either pre- or post-
census, we could only give a city or a county or a township the 
housing unit count by block.
    For example, you know, 30 housing units in a specific block 
and a specific census track or 42 in another. Now, housing 
units by block is not the format in which governments keep 
their records. Tax records, utility records, all the kinds of 
addresses that any of us are familiar with are things like 
12342 Oak Street. And, the local governments found it either 
cumbersome or impossible to compare records.
    Interestingly, the U.S. Postal Service also had 
confidentiality laws. And thus, the two largest address lists 
maintained by the Federal Government could not be compared for 
one to be used to improve the other.
    Well, fortuitously, at that time, the predecessor of this 
committee had oversight for both the Census Bureau and the 
Postal Service. And with bipartisan support, Representative Tom 
Sawyer whom we've heard from, the chair of that subcommittee, 
and Representative Tom Petri of Wisconsin whom we've also heard 
from this morning, who was the ranking minority member, worked 
together and sponsored legislation that allowed the Census 
Bureau to share with the Post Office and the Post Office to 
share with the Census Bureau, and the Census Bureau to share 
with local government for purposes only of improving address 
lists, not for any enforcement purpose.
    Well, freed from legal restrictions, the Census Bureau 
moved ahead to plan the operation now called LUCA, and we've 
heard enough about LUCA this morning that I don't need to go 
through and elaborate on it.
    We now have 45 percent, I understand, of local governments 
participating. More are expected, and, of course, more are 
desirable.
    But what's different from 1990 is that as each local 
government receives information, it receives its TIGER maps and 
its portion of the census address files so that it can relate 
those addresses to the maps. And for the first time, the Census 
Bureau has retained the computerized address file from the 
previous census. People may move, but fortunately most 
buildings don't.
    Now, the address control file is also being updated 
continuously by the delivery sequence file of the U.S. Postal 
Service. Since the Census Bureau is also the agency that 
collects records on new housing starts and demolitions, these 
two are being used to update the address control file. It's a 
big job. You know if you've even tried to maintain your own 
Christmas card list that our population is a moving target. But 
fortunately, their housing units are a bit more stable.
    All of this brings me to H.R. 472, which proposes to 
reinstitute a costly operation that's been evaluated, 
thoroughly evaluated and found wanting. Because the report card 
on post-census local review showed such dismal results, it has 
been replaced by LUCA.
    Thus, the 2000 forms will be hand delivered to the most 
current address list possible. But H.R. 472 does far more than 
propose to reintroduce a census operation found ineffective. 
More importantly, it details in great specificity how that 
operation is to be executed. H.R. 472 thus opens the door to 
many attempts to legislate micro management of the 2000 census.
    Census 2000 is an operation whose scope and complexity is a 
far too great magnitude to be executed successfully without 
integrated implementation of a great many operations planned in 
advance and tested in the dress rehearsal now past. The 
decennial census is the largest Federal peace time activity. It 
should not be designed ad hoc at the 11th hour and with just 1 
year to go now and less once this legislation could possibly be 
passed.
    The 11th hour is now at hand.
    [The prepared statement of Ms. Bryant follows:]

    [GRAPHIC] [TIFF OMITTED]60286.069
    
    [GRAPHIC] [TIFF OMITTED]60286.070
    
    [GRAPHIC] [TIFF OMITTED]60286.071
    
    [GRAPHIC] [TIFF OMITTED]60286.072
    
    [GRAPHIC] [TIFF OMITTED]60286.073
    
    Mr. Miller. Thank you, Dr. Bryant. One of our great 
concerns is--and you've heard me say this is that I thought we 
were moving toward a failed census. They've been planning for 
an illegal sampling plan for over a couple years. This is, you 
know, illegal. And back in the fall of 1997 in the Commerce 
Justice bill, we mandated at least two tracks per pair or a 
full enumeration census.
    Last summer, the six Federal judges--two of them were 
Clinton appointees--said it's illegal. And what do we have? 
We're still going to go full speed for this illegal plan prior 
to the Supreme Court rule, and we don't have a plan. We're a 
year away. What are we supposed to do?
    They give a plan that's got lots of voids in it. We have no 
idea if they're going to do a PF, what size it is, or anything 
else. There's so many missing things. Why should we know?
    And they're saying, well, hopefully we'll get to you, maybe 
next month. Well, you know, this is a $5 billion thing. I mean, 
they haven't even given us the dollar amount. Now I talked to 
Secretary Daley yesterday. He's hoping to have some numbers for 
us by the end of February when he testified before the Commerce 
Justice Committee.
    But you know, we have a responsibility in oversight to make 
sure we have a census. I'm concerned it's going to get done. 
And then we have no input. It goes back to an issue of trust, 
and, you know, you've got to trust this. This has got to be the 
most distrusted administration in a long time, and, you know, 
having the idea of them controlling it is a scary thing.
    And then to say, as I say, we've been 6 years and spent $1 
billion, and these are the experts that designed it. Well, the 
experts have an illegal plan. So, where do we go from here. 
It's illegal. The Supreme Court ruled.
    Ms. Bryant. The Supreme Court ruled only in case of 
apportionment. It actually encouraged the use of a sampling of 
statistical estimation for other purposes.
    But questions about the plan, I'm here for history.
    Mr. Miller. Right.
    Ms. Bryant. These are questions you've got to ask the new 
Director because a census cannot be micro-managed by an ex-
Director.
    Mr. Miller. That's right. But if we can't even get a plan 
from the Bureau, if we can't even see the plan, and they've 
been told in law that they have to have a plan, and we have no 
details, that's not the details of the plan. How large are the 
PES, and how long is a PS? Tell me that question. They don't 
have it. They don't have any dollar amounts.
    Mr. Ehrlich. What's material about that? You have to bear 
in mind, Mr. Chairman, if I may for a second, that 90 percent 
of the sample versus a non-sample census is the same set of 
activities. The fact is their sampling didn't change the 
approach to LUCA or to developing imaging equipment, to 
outsourcing the management of the data captured facilities. 
Which aspects of it are material to your concern?
    The fact that the Bureau can't give you a number right now 
for the final dollar cost of the census reflects not only the 
kinds of concerns that you have, but, for example, that we 
don't know what wage rate will clear the labor market to hire 
the extra 300,000 people that have to be hired.
    I think that there's a middle ground, and it's not clear to 
me that the absence of the details that you raised justify the 
kinds of micro-management that are of concern to us.
    Mr. Miller. Well, we do know they don't want to do a post-
census local review, and that's the reason we're moving now on 
this issue.
    Mr. Ehrlich. Right.
    Mr. Miller. As an issue of trust, I haven't met a local 
official that's opposed to it. And I know it's a pain probably 
for the people at the Census Bureau. I know they don't really 
like to do this.
    But the thing is, we didn't have trust. And if we don't 
have trust in the system, then it makes the whole census a 
failure if you don't have trust in the census numbers. And 
that's the reason I think that this is so important. As I said, 
I'd like to find an elected official to say I don't like it, I 
won't do it, I won't participate in it. I'll bet you the mayor 
of Chicago would participate in it if it's available, and I bet 
you the mayor of Detroit will participate in it again if it's 
available.
    Let me go back to LUCA. You know, I think LUCA's a good 
idea. I think we need to put more resources into the front end. 
There's no question about that, and I fully support that.
    But this is the first time they've done it. And you know, I 
think you had a hearing out in Sacramento that there were some 
concerns with it. We don't know LUCA is perfect, and they had 
some problems there and hopefully they're going to correct the 
problems based upon that.
    And that's the only thing. You admit LUCA--and you're on 
this monitoring board--that there's some problems with it, 
right? I mean, we're all agreed that it's a good idea.
    But, just as we liked the idea of the Florida census, 
what's wrong with doing one after the census? I mean, we can 
work out the time constraints.
    Ms. Bryant. I'll point out one thing about it. It's local 
government records versus Census Bureau records. As long as the 
taxes are paid on a housing unit, the local government will 
consider that a valid unit. Take an apartment building with 50 
apartments, 49 of which are occupied and one of which is 
vacant. The Census Bureau counts it as 49. The city, the taxes 
are paid, counts for this as 50.
    Thus, you're always going to have the local governments 
coming back and saying you did not count enough. All of the 
goodies come by maximizing your account, not by accuracy. As 
Everett has said, when you open up and especially in 1990, we 
had criteria for challenging at the block level, not at just 
saying you're wrong about my whole city, but specifics so that 
the Census Bureau could actually check them out on the ground.
    This bill does not include any criteria. I think that you 
should be working this out in discussion with the Bureau rather 
than legislating a series of procedures that may or may not be 
possible to integrate into the schedule.
    Mr. Miller. Is Congress relevant in this issue at all 
according to you, Dr. Bryant?
    Ms. Bryant. Oh, yes.
    Mr. Miller. OK, thank you. My time's up.
    Ms. Bryant. We worked a lot with your predecessor 
committee.
    Mr. Miller. Do we have an oversight responsibility?
    Ms. Bryant. You certainly do. Title 113 says so.
    Mr. Davis of Illinois. Mr. Chairman, I know that 
definitions are definitions, and different individuals need 
different things. But when I look at this, it says ``United 
States Census 2000, Census 2000 Operational Plan Using 
Traditional Census Taking Methods.''
    And so, when I hear a lot of conversation about there being 
no plan, perhaps if that could be altered a bit to say I have 
not seen the plan that I'm looking for or a plan that I'm 
satisfied with. Perhaps, I could understand.
    Mr. Miller. A partial plan.
    Mr. Davis of Illinois. All right.
    Mr. Miller. That's missing lots of details.
    Mr. Davis of Illinois. And also, you know, I listen about 
how much faith people have in this administration. And it was 
just occurring to me that I know an awful lot of priests and 
ministers who, if they could get a 70 percent approval rating, 
they'd be pretty happy. They'd be pretty satisfied. And so, you 
know, I think people do have faith and confidence in this 
administration and in this government to take care of its 
business.
    But at any rate, a couple questions. Dr. Ehrlich, we've 
heard that about 80,000 housing units were added during the 
post-census review in 1990. Do you know how many of those were 
vacant?
    Mr. Ehrlich. If I remember it, I think something like 25 
percent of them were vacant, 12 percent of them were reported 
erroneously. So, maybe the number is a half of that or two-
thirds of that when the actual rubber meets the road. But 
whether it's 80 or 50 or 100, maybe, it really doesn't get us 
close to making the kinds of systemic corrections that need to 
be made in the census in 1990 in which 10 million Americans 
were closed out, 4 million undercounted on that basis.
    Mr. Davis of Illinois. Well, if we were to even add, say, 
56,000 or so additional units at a cost of about $10 million, 
how would you view that in terms of cost-effectiveness?
    Mr. Ehrlich. I wouldn't regard it as cost-effective. I'd 
probably make three points in summary. First, if it had 
produced a small increment in the undercount at a great expense 
to a great delay in other important activities in the flow of 
the census.
    Second, it addresses one kind of error--undercount. It 
doesn't address overcount, and there are overcounts. There are 
people who have two different homes, snowbirds, they're 
sometimes called out in the field, or people who have second 
properties. It's impossible to identify that kind of an error 
in this procedure.
    And third and perhaps most important, there are two kinds 
of undercounting errors in a census. One is where we don't know 
where your front door is. The second is we find the front door, 
but we don't know who's behind it. The second error, not 
knowing who's behind the front door, is generally around two-
thirds of the error in the census, even more so in hard-to-
count communities.
    What we have here is a minor solution to the problem of not 
knowing where the front door is that gives us nothing in the 
way of finding out who's behind it.
    Mr. Davis of Illinois. I want to ask you, if you have an 
overcount and an undercount, would you call that perhaps a 
double whammy on hard-to-count communities?
    Mr. Ehrlich. Yes.
    Mr. Davis of Illinois. Would it act as twice----
    Mr. Ehrlich. They're not countervailing errors. One doesn't 
undo the other. In fact, when we have errors going up and down, 
you have to add them, not subtract one from the other, to get 
to the right answer or to figure out how far you are from the 
right answer.
    Mr. Davis of Illinois. And so that's quite severe?
    Mr. Ehrlich. Yes.
    Mr. Davis of Illinois. Dr. Bryant, I was just going to ask 
you, you indicated when you get to taking a look at 472, in 
your opinion, is it really needed? Are the same concerns that 
we're trying to get at just as well gotten at with what we've 
already got?
    Ms. Bryant. I think that, no, with LUCA, it's much better 
because it would get the addresses on the list ahead of time, 
and, therefore, no, you'd get the accurate housing unit count 
at the time you mail out the questionnaires. Post-census local 
review inevitably would be done in late summer by which time 
lots of people have moved, people with two households may be in 
a different household, those kind of things.
    So, I know there will be other kinds of followup checks. In 
1990, we had a program called ``Were You Counted?'' And 
actually most of what Detroit got was not from post-census 
local review, but was from a very aggressive ``Were You 
Counted,'' in which they distributed a lot of questionnaires 
out. Many of the people had already been counted. But the ones 
that put Detroit over its million were the ones who had not.
    There will be a ``Were You Counted'' program again in this 
census, as I understand it. I just think the post-census local 
review for the time it takes--and I'm more concerned about the 
time than the money--is not an effective program. And the 
Census Bureau does learn by its mistakes. I'd be the last to 
deny that it makes mistakes, or that we made them in 1990. I 
think this is a case where you look at all the different things 
you did, what worked and what didn't, and what needed to be 
changed, and then go toward trying to get the address list in 
good shape at the time that is the census period and when the 
maximum publicity is on being counted.
    Mr. Davis of Illinois. My last question, Chairman. If we 
were to pass 472, do you think it could be implemented in time 
to comply with the dates that have already been established?
    Ms. Bryant. Well, the dates are by law, and they have to be 
met whatever form you're in. And I do not want to get into the 
operational plans for 2000. I'm not the Director, and I will 
not micro-manage the next Director's census. So I'd rather 
you'd be talking directly to Dr. Ken Prewitt or John Thompson, 
who is the civil servant most high on the running of the 
decennial list.
    Mr. Ehrlich. Yes, Mr. Congressman, if I may respond in 
part. I read in the draft of this bill that the Secretary shall 
investigate all challenges timely submitted under paragraph 
three, which is something that if you were to pass this bill, 
you would want the Secretary to do? And that by November 1st, 
he'll take whatever action involved.
    This, in essence, gives 39,000 local governments standing 
to sue to investigate it in the appropriate fashion, and it in 
essence gives us a license to go to court. The census has spent 
too much time in court and not enough time in the hands of the 
career professionals of the Bureau. I think that we should take 
every action possible to reverse that flow and not accelerate 
it.
    Mr. Davis of Illinois. Thank you both very much. I have no 
further questions, Mr. Chairman.
    Mr. Miller. Mr. Doolittle, any questions?
    Mr. Doolittle. I have no questions.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. I have no more.
    Mr. Miller. Mr. Souder.
    Mr. Souder. I have none.
    Mr. Miller. Let me conclude with just a statement that I 
don't see what the harm is, and all we're talking about doing 
is building trust in the American people and the communities. 
And when you see communities like Congressman Petri's district 
or Mayor Archer's city that it made a difference in real, why 
not give people that opportunity, and that's all we're talking 
about.
    So, with that, let me thank you both for being here today. 
I have a couple of statements here. Thank you very much. I ask 
unanimous consent that all Members' and witnesses' written 
opening statements be included in the record without objection. 
So ordered.
    I also ask unanimous consent that the record remain open 
for 1 week for those invited witnesses who were unable to be 
present at the hearing but wanted to submit written testimony. 
Without objection, so ordered. And we will adjourn and 
reconvene shortly for a mark up on the bill. Thank you very 
much.
    [Whereupon, at 2:40 p.m., the subcommittee proceeded to 
other business.]

                                   - 

</pre></body></html>
